      Office of
 I nsp ect o r G e n e r a l
                                                     U.S. DEPARTMENT OF THE INTERIOR


                          SEMIANNUAL
                            REPORT
Highlights
Deficiencies
Weaken MMS
Audit Offices
Page 13

Progress Reported
by Pacific Field
Liaison
Page 17


USGS Needs
to Secure
Critical
Information
Systems
Page 22

Scientist                   Investigation Uncovers
Embezzles           Underpayments in Gas Royalties
$34,000                                                                 Page 13
Page 22

                                                                      April 2003
                    Photos Courtesy of Microsoft Clip Art Gallery
Message from the Inspector General




       I am pleased to present the results and accomplishments of the Office of Inspector General from
October 1, 2002, through March 31, 2003. During this reporting period, as well as our last, we
concentrated our efforts on helping the Department of the Interior address its most serious management
challenges. We are confident that focusing on these issues will help the Department detect and correct
vulnerabilities in its programs and operations.

         For this reporting period, we have a considerable amount of money to report in restitutions and
recoveries – approximately $7.8 million. Much of this recovered money resulted from investigations of gas
royalty underpayments to the Minerals Management Service. Since 1998, our office has reported over
$500 million in oil and gas royalty underpayments – a portion of which has been used to fund state
education, Indian reservations, and water projects in the western United States. Additionally, our
investigations over the last 6 months have resulted in numerous charges of embezzlement, conspiracy,
bribery, false claims, and wire fraud – yielding a total of eight new indictments and 16 convictions.

        In our last two Semiannual Reports, we expressed a concern with the management of grant funds by
Insular Area governments, which include Guam, the U.S. Virgin Islands, American Samoa, the
Commonwealth of the Northern Mariana Islands, the Republic of the Marshall Islands, the Federated States
of Micronesia, and the Republic of Palau. We highlighted financial accountability deficiencies in these
governments, reporting that they generally ignore our audit recommendations and fail to sufficiently respond
to our audit reports. We reported similar deficiencies during the last 6 months as well. We found that the
Virgin Islands Government has failed to use funds totaling $29.6 million effectively or appropriately, which
resulted in a school construction project that was delayed for nearly 2 years – with cost overruns of over
$17 million – and a mental health facility that never opened. We also found that wastewater disposal
projects were delayed because of poor planning for contracting out projects. We believe that these
problems with fiscal accountability in Insular Area governments continue to exist because the Department
lacks the authority to enforce audit recommendations.

        In March 2003, we moved our field office in Tamuning, Guam, to Honolulu, Hawaii, in an effort to
expand our audit and investigative coverage of the Department. The relocation offers an excellent
opportunity to maintain an effective presence in Hawaii, while at the same time addressing the longstanding
challenges facing Insular Area governments as a whole. We also appointed liaisons to help Pacific Island
governments understand and implement previous audit recommendations and to assist in capacity-building.
Thus far, we have been pleased with the progress reported by these liaisons, who have reported
improvements in systems and controls that account for grant monies and the closing out of unresolved audit
recommendations. We believe this new concerted effort will help combat the general lack of response by
these governments to our audit findings.




                Semiannual Report to the Congress: October 1, 2002 - March 31, 2003
Message from the Inspector General (continued)




        In addition, we have provided training for auditors in the Pacific Insular Public Auditor Offices, and
we have high expectations that this training will assist the Pacific Island governments in becoming more self-
sustaining and help in identifying internal control weaknesses in programs and operations.

         Our office is dedicated to ensuring that the Department of the Interior attains a higher level of
integrity through our audit and investigative activity, and we are committed to not only reporting waste,
fraud, and abuse, but also working with the Department to prevent it.




                                                 Earl E. Devaney
                                                 Inspector General




                 Semiannual Report to the Congress: October 1, 2002 - March 31, 2003
                                                                                                                         Table of Contents

                                                                                                                                    Page
Statistical Highlights.............................................................................................................. ii
Organization ...........................................................................................................................1
Mission and Top Management Challenges ............................................................................2
Significant Audit Activities and Investigations ......................................................................3
   Department of the Interior..................................................................................................3
   Bureau of Indian Affairs.....................................................................................................5
   Bureau of Land Management ...........................................................................................11
   Bureau of Reclamation.....................................................................................................12
   Minerals Management Service.........................................................................................13
   National Park Service .......................................................................................................14
   Office of Insular Affairs ...................................................................................................17
   Office of the Special Trustee for American Indians.........................................................19
   U.S. Fish and Wildlife Service.........................................................................................20
   U.S. Geological Survey ............................................................................................................ 22

Appendices

 1 - Summary of Audit and Related Activities from October 1, 2002, Through
     March 31, 2003.............................................................................................................23
 2 - Audit Reports Issued or Processed and Indirect Cost Proposals Negotiated
     During the 6-Month Period That Ended March 31, 2003 .............................................24
        - Internal Reports......................................................................................................24
        - Contract and Grant Audits .....................................................................................26
        - Single Audits..........................................................................................................28
        - Indirect Cost Proposals ..........................................................................................35
 3 - Monetary Impact of Audit Activities From October 1, 2002, Through
     March 31, 2003.............................................................................................................41
 4 - Nonfederal Funding Included in Monetary Impact of Audit Activities
     During the 6-Month Period That Ended March 31, 2003.............................................42
 5 - Audit Resolution Activities...........................................................................................43
        - Table I - Inspector General Audit Reports With Questioned Costs.......................43
        - Table II - Inspector General Audit Reports With Recommendations That
           Funds be Put to Better Use ....................................................................................44
        - Table III - Inspector General Audit Reports With Lost or Potential
          Additional Revenues .............................................................................................45
 6 - Summary of Audit Reports Over 6 Months Old Pending Management Decisions ......46
        - Internal Audits........................................................................................................46
        - Contract and Grant Audits .....................................................................................46
        - Single Audits..........................................................................................................48
 7 - Summary of Internal Audit Reports Over 6 Months Old Pending
     Corrective Action..........................................................................................................52
 8 - Summary of Insular Area Reports With Recommendations Over 6 Months Old ........56
        - Internal Audits........................................................................................................56
        - Single Audits..........................................................................................................58
 9 - Program Integrity Reports Issued
     During the 6-Month Period That Ended March 31, 2003 .............................................59
10 - Cross-References to the Inspector General Act ............................................................60
                       Semiannual Report to the Congress: October 1, 2002 - March 31, 2003
                                                                           i
Statistical Highlights



                               Statistical Highlights
                                         Audit Activity


    Reports Issued
       » Internal Audits                                             37
       » Contracts and Grant Audits                                  18
                                                                     55                  55

    Single Audits Processed                                                             228

    Indirect Cost Proposals Negotiated                                                  183

                                         Audit Impacts
    Total Monetary Impact (Dollar Amounts in Millions)
       » Questioned Costs (Includes Unsupported Costs)          $12.67
       » Recommendations that Funds be Put to Better Use         33.15
       » Lost or Potential Additional Revenues                    1.45
                                                                $47.27                $47.27


    Internal Audit Recommendations Made                                                 230

    Internal Audit Recommendations Resolved                                             168



                                         Investigative


    Cases Closed this Period                                                            110

    New Cases Opened                                                                    124

    Hotline Complaints/Inquiries Received                                                68




                Semiannual Report to the Congress: October 1, 2002 - March 31, 2003
                                                ii
                                                                             Statistical Highlights


                      S t a tis tic al H ig h lig h t s (c o n tin u e d )

Criminal

Indictments/Information                                                                 9

Convictions                                                                           17

Sentencings                                                                           17
   » Jail                                            9 Months
   » Probation                                     600 Months
   » Community Service                             922 Months

Criminal Judgments/Restitutions                                                 $662,085

Criminal Matters Referred for Prosecution this                                         13
Period

Criminal Matters Declined this Period                                                  17

Civil

Civil Referrals                                                                         0

Civil Recoveries                                                              $7,352,427

Civil Declinations                                                                      1

Administrative

Personnel Actions
   » Downgrades                                              1
   » Suspensions                                             8
   » Resignations                                            7
   » Retirements                                             3
   » Reprimands/Counseling                                  29
   » Reassignments/Transfer                                  1
   » Other Personnel Actions                                 2
   » General Policy Actions                                  6
                                                            57                         57

Administrative Recoveries/Restitutions                                           $27,316

Contractor Suspensions                                                                  1

Contractor Termination                                                                  1

Other Procurement Remedies                                                              1

   Semiannual Report to the Congress: October 1, 2002 - March 31, 2003
                                            iii
                                                                                                                          Inspector General
                                                                                                                                                                                               Organization




                                                                                                                                Deputy
                                                                                                                           Inspector General



                                                                                          Associate Inspector
                                                                                             General for                                                          Office of
                                                                                            Whistleblower                                                      General Counsel
                                                                                              Protection




1
                                                                                                 Assistant Inspector   Assistant Inspector                             Assistant Inspector
                                                                          Assistant Inspector                                                  Assistant Inspector        General for
                                                                             General for            General for           General for             General for        Administrative Services
                                                                            Program and                Audits            Investigations         Human Capital         & Information Mgmt.
                                                                               Integrity                                                         Management
                                                                                                    Deputy AIG             Deputy AIG                                     Deputy AIG


                                                                                                                                                                        Chief Information




    Semiannual Report to the Congress: October 1, 2002 - March 31, 2003
                                                                                                                                                                             Officer
                                                                                                                                                                     Information Technology
                                                                                                                                                                            Division
                                                            Mission and Top Management Challenges

              DEPARTMENT OF THE INTERIOR/OFFICE OF INSPECTOR GENERAL
                             GENERAL STATEMENT

                                                  Mission
                  The mission of the Office of Inspector General (OIG) is to promote excellence
                       and integrity in the programs, operations, and management of the
                              Department of the Interior (DOI or the Department).

                                               Responsibilities
         The OIG is responsible for independently and objectively identifying risks and vulnerabilities that
directly impact, or could impact, the Department’s ability to accomplish its mission. We are required to keep
the Secretary and the Congress fully and currently informed about problems and deficiencies relating to the
administration of departmental programs and operations. Effective implementation of this mandate addresses
the public’s demand for greater accountability and integrity in the administration of government programs and
operations and the demand for programs that work better, cost less, and get the results about which
Americans care most.

                                                    Activities
         The OIG accomplishes its mission by conducting audits, investigations, evaluations, and reviews
relating to the programs and operations of the Department. Our activities are tied directly to the
Department’s major responsibilities and are designed to assist the Department in developing solutions for its
most serious management and program challenges, most notably, cross-cutting or Department-wide issues.
They are also designed to ensure that we are keeping critical issues on the “radar screen” of key decision-
makers. By continually keeping critical issues prominent, we greatly influence and increase the likelihood that
desired outcomes and results that benefit the American taxpayer will be achieved.


                         TOP MANAGEMENT CHALLENGES OF THE
                            DEPARTMENT OF THE INTERIOR
                         As reported in the DOI FY 2002 Report on Accountability

                          •   Financial Management
                          •   Information Technology
                          •   Health, Safety and Emergency Management
                          •   Maintenance of Facilities
                          •   Responsibility to Indians and Insular Areas
                          •   Resource Protection and Restoration
                          •   Revenue Collections
                          •   Procurement, Contracts and Grants


                 Semiannual Report to the Congress: October 1, 2002 - March 31, 2003
                                                       2
Significant Audit Activities and Investigations



              Department of the Interior

              Civil Complaint Filed Against DOI Employee and Watchdog Group
                   A five-count civil complaint was filed in U.S. District Court of the District of Columbia
              against Robert Alan Berman, economist, Office of Policy Analysis (OPA), Assistant
              Secretary, Policy, Management and Budget, DOI, Washington, D.C., and the Project on
              Government Oversight (POGO) for the following violations:
                   » Supplementing the Salary of a Government Official
                   » Receiving a Share in a Claim Against the United States
                   » Breach of Fiduciary Duty
                   » Unjust Enrichment
                   » Declaratory Injunctive Relief
                    The civil complaint alleged that POGO, a nonprofit organization and government
              watchdog group, paid Berman $383,600 for work he performed as a federal employee and
              for his assistance in qui tam litigation filed against major oil companies for the underpayment
              of royalties to the Minerals Management Service (MMS). POGO’s payment to Berman
              was his share in the proceeds from an oil settlement with Mobil Oil Corporation.

              Despite Unqualified Opinion, Significant Internal Weaknesses Hinder Progress
                    The independent certified public accounting firm of KPMG LLP (KPMG), under
              contract with the Office of Inspector General, rendered an unqualified (“clean”) opinion on
              the consolidated financial statements of the Department of the Interior for fiscal year 2002.
              KPMG also rendered unqualified opinions on the financial statements of six of the nine DOI
              bureaus. KPMG issued qualified opinions on the fiscal year 2002 financial statements of the
              U.S. Fish and Wildlife Service (FWS) and the Departmental Offices and did not express an
              opinion on the financial statements of the U.S. Geological Survey (USGS). FWS could not
              provide adequate documentation to support its general property, plant, and equipment
              balances, and the Departmental Offices could not provide timely documentation to support
              its accounts receivable and advances from others for its Interior Franchise Fund. As a
              result, the Interior Franchise Fund received a disclaimer of opinion on its financial
              statements. The USGS did not issue financial statements for fiscal year 2002 because of
              significant internal control deficiencies.

                                                click here for full report




               Semiannual Report to the Congress: October 1, 2002 - March 31, 2003
                                                     3
                                          Significant Audit Activities and Investigations


     Significant weaknesses in the DOI were identified in the following areas:

     » Financial Management Systems. DOI’s lack of adequate information
       technology and general controls over its financial information systems could
       adversely affect its ability to prevent unauthorized changes to financial information,
       control electronic access to sensitive information, and protect information
       resources.

     » Property, Plant, and Equipment. Weaknesses were reported in acquisitions and
       disposals; reconciliation of subsidiary ledgers to general ledgers; property, land, and
       land rights inventories; recording property transfers and depreciation; and
       accounting for construction in progress.

     » Financial Reporting. After year-end recording transactions, DOI spent significant
       time analyzing financial records and reconciling accounts due to its failure to
       record financial transactions consistantly and in a timely manner, analyze financial
       records, and reconcile general ledger accounts to subsidiary ledgers or other
       supporting documentation. DOI also did not apply activity-based costing
       methodologies to allocate costs in accordance with accounting standards.

     » Reconciliation of Intradepartmental and Intragovernmental
       Transactions. DOI’s failure to reconcile its intradepartmental and
       intragovernmental activity on a timely basis throughout the year required significant
       time and resources after year-end to reconcile intradepartmental activity to within
       an acceptable level. DOI was also unable to reconcile its nonfiduciary
       intragovernmental activity with other federal agencies.

     » Trust Fund Management. DOI’s procedures and controls were inadequate to
       ensure the proper and timely recording of Indian trust activity and balances.

     » Financial Processes at the U.S. Geological Survey. USGS lacked adequate
       procedures to ensure the proper and timely recording of its financial transactions. It
       also lacked the financial personnel needed to manage its financial operations.

     To address the weaknesses identified in the audit reports, DOI is requiring its bureaus
and offices to prepare corrective action plans for each weakness, including monthly
milestones and target dates for completing the actions.




Semiannual Report to the Congress: October 1, 2002 - March 31, 2003
                                      4
Significant Audit Activities and Investigations



              Bureau of Indian Affairs
              Former BIA Contracting Officer Sentenced; Son-in-law Pleads Guilty
                   Stephen J. Calvin, a former Bureau of Indian Affairs (BIA) contracting officer who
              previously pleaded guilty to a charge of mail fraud concerning the steering of government
              contracts to his son-in-law, Anthony L. Dohi, was sentenced in U.S. District Court of New
              Mexico to 18 months of imprisonment and 36 months of supervised release. He was
              ordered to pay restitution in the amount of $242,036. Dohi also pleaded guilty to theft from
              the Federal Government relative to a contract Calvin awarded to him, which Dohi was not
              qualified to perform. Sentencing of Dohi is pending.

                    As reported in our October 2002 Semiannual Report, Calvin used his position at the
              BIA to award three contracts to Dohi and his company, Dohi Industries, by circumventing
              proper bidding and bonding requirements and providing confidential pricing information.
              One such contract, the construction of an overpass, caused the BIA to demolish and rebuild
              the bridge due to structural deficiencies. The demolition and new construction cost the BIA
              nearly a million additional dollars.

              Tribal Chairman Sentenced in $100,000 Embezzlement Case

                   Former Tribal Chairman Orlando Anthony Largo, Santa Rosa Band of Mission
              Indians, Santa Rosa, California, was sentenced following a guilty plea to charges that he
              diverted tribal funds to his personal use by issuing 186 checks totaling more than $100,000
              to himself from the tribal checking account. Largo was sentenced to 1 year and 1 day of
              imprisonment and 3 years of supervised release. He was ordered to pay restitution in the
              amount of $96,500. This investigation was a joint effort with the FBI.

              Court Convicts Turtle Mountain Band of Chippewa Indian Officials

                   Sentences were imposed on three Turtle Mountain Band of Chippewa Indian
              (TMBCI) officials as the result of a joint investigation by the OIG, FBI, and IRS Criminal
              Investigation Division into a series of fraudulent activities by current and former officials of
              the TMBCI. Sentencing of one defendant is still pending. The four individuals were
              convicted of various crimes, including conspiracy, theft, money laundering, witness
              tampering, and perjury, as reported in our October 2002 Semiannual Report.

                   » Ronald S. Morin, contract administrator of Uniband – a TMBCI-owned and
                     controlled business providing data entry service – was convicted at trial as a co-
                     conspirator with Raphael DeCoteau, the former tribal chairman of TMBCI. Morin
                     was sentenced to 21 months of imprisonment, 24 months of supervised release, and
                     250 hours of community service. He was ordered to pay restitution in the amount
                     of $69,412.

               Semiannual Report to the Congress: October 1, 2002 - March 31, 2003
                                                      5
                                         Significant Audit Activities and Investigations


     » Raphael DeCoteau was convicted at trial to charges of conspiracy and theft related
       to various schemes to defraud the TMBCI and was sentenced to 21 months of
       imprisonment, 24 months of supervised release, and 250 hours of community
       service. He was ordered to pay restitution in the amount of $69,412, which is to be
       paid jointly and severally with Ronald Morin. In addition, DeCoteau was sentenced
       to 6 months of imprisonment and 24 months of supervised release to be served
       concurrently with his previous conviction. He was ordered to perform an additional
       50 hours of community service and to pay restitution in the amount of $7,300 on a
       separate charge of misapplication of tribal funds. This additional sentence related to
       DeCoteau’s guilty plea for using tribal funds to purchase approximately 15 acres of
       land for his family members. DeCoteau attempted to conceal his theft by recording
       the expense as “business grants.”

     » Douglas J. Delorme, a current TMBCI councilman, pleaded guilty to charges of
       theft from an Indian tribal organization and witness tampering. He was sentenced to
       12 months of imprisonment and 36 months of supervised release. He was ordered
       to pay restitution in the amount of $7,800. Delorme was convicted of providing a
       tribal check to an enrolled member of the TMBCI on the condition that he kickback
       a portion of the money to Delorme. Delorme also pleaded guilty to encouraging the
       enrolled member to make a material false declaration, intimidating him, and inducing
       him to change and withhold his testimony regarding the theft. In addition, Delorme
       was convicted of embezzling another $3,800 of tribal funds by issuing TMBCI
       checks to repay personal loans.

     » Raymond Poitra, former Chief Executive Officer of Uniband Inc., pleaded guilty to
       charges of theft, money laundering, and criminal asset forfeiture in connection with a
       scheme to defraud Uniband. The scheme to defraud both Uniband and TMBCI
       was accomplished, in part, through the submission of fictitious, fraudulent, inflated,
       or double-billed invoices related to a series of companies established by Poitra as
       mediums to divert Uniband monies for his own personal use. While preparing for
       Poitra’s trial, investigating agents discovered that Poitra embezzled an additional
       $282,000 in Uniband funds through a heavy equipment scheme, bringing the total
       amount stolen by Poitra to $577,000. Sentencing of Poitra is pending.

Former BIA Employees Sentenced in Indian Education Fraud
       Rosalie B. Yazzie, former business manager of the Seba Dalkai Boarding School,
and Alberta J. Bitsoi, former business manager of the BIA’s Office of Indian Education
Programs, were sentenced in a U.S. district court after systematically defrauding the Federal
Government by submitting false vouchers for stipend payments. As reported in our October
2002 Semiannual Report, stipend payments are made to BIA employees for work that is
performed above and beyond the tour of duty.



Semiannual Report to the Congress: October 1, 2002 - March 31, 2003
                                     6
Significant Audit Activities and Investigations



                    Yazzie was sentenced in U.S. District Court of Arizona to 6 months home confinement
              and 60 months of supervised release. She was ordered to pay restitution in the amount of
              $57,401. Bitsoi was sentenced to 36 months supervised release and ordered to pay
              restitution in the amount of $21,700.

              “Operation Card Trix” Investigation Yields Four Guilty Pleas

                    Four individuals were accused by a federal grand jury in
              Montana in five separate indictments on charges of conspiracy,
              bribery, wire fraud, false claims, and false statements in
              connection with a scheme to defraud the government by
              misusing government credit cards and accepting kickbacks.
              Charles C. Dillon, a BIA supervisor for the Crow Agency
              Facilities Management Branch; Emmett Old Bull, a BIA
              accounting technician at the Facilities Management Branch;
              Kirm G. Kath, co-owner of JJ&K Enterprises and sales
              representative for West Lite Corporation; and David D.
              Bauman, vice president of Pro Tech Mechanical, entered guilty
              pleas in U.S. District Court of Montana related to their
              participation in the kickback scheme.

                    As reported in the October 2002 Semiannual report, Dillon and Old Bull solicited and
              received payments from Kath and Bauman in exchange for using a government credit card
              to purchase products or services from West Lite and Pro Tech. Dillon structured the
              purchases, totaling $133,000, into amounts smaller than the $2,500 limit to avoid having to
              get BIA approval – in effect, creating a practical monopoly for the companies, according to
              the indictments. Old Bull used his BIA credit card to purchase $68,230 from Pro Tech and
              accepted kickbacks in return.

                   Old Bull entered a plea of guilty to a charge of bribery. Dillon pleded guilty to three
              counts of bribery, two counts of wire fraud, and one count of making a false statement.
              Dillon was also removed from federal service. Kath entered a plea of guilty to one count of
              bribery and two counts of conspiracy. He was sentenced to 78 months of imprisonment
              and 36 months of supervised release. He was ordered to pay restitution in the amount of
              $77,216. Bauman was sentenced to 12 months and 1 day of imprisonment and 36 months
              of supervised release. He was ordered to pay a fine in the amount of $5,000 following his
              plea of guilty to charges of bribery and accessory after the fact. Sentencing of Dillon and
              Old Bull is pending.

                   Members of our investigations and audits divisions were joined in this task force
              investigation by the Department of Health and Human Services OIG, the Department of
              Housing and Urban Development OIG, the IRS Criminal Investigation Division, and
              investigators of the U.S. Attorneys Office in Montana.

               Semiannual Report to the Congress: October 1, 2002 - March 31, 2003
                                                   7
                                           Significant Audit Activities and Investigations



Asphalt Company Indicted in Relation to Highway Repair Scheme

     Asphalt Supply & Service, Inc., and the company’s president, Robert R. Zimmerman,
of Laurel, Montana, were indicted by a federal grand jury in Billings, Montana, on charges
of making a false claim and false statements. According to the indictment, Asphalt Supply &
Service submitted altered and fictitious invoices to support a claim to the BIA for
reimbursement for expenses that were, in fact, not incurred. The investigation revealed that
the company was awarded a contract for the supply and delivery of asphalt materials
needed for the repair of a highway on the Pine Ridge Indian reservation.

     Due to circumstances beyond the control of the BIA and Asphalt Supply & Service,
the delivery of the materials could not be made. Nonetheless, Asphalt Supply & Service
submitted a claim for reimbursement for the cost of the perishable materials it never
procured and justified the claim by presenting altered and fictitious invoices to support its
claim for more than $175,000. Trial is pending.

Private Financial Advisor Indicted in Fraudulent Investment Scheme

     Howard Eugene Liner, a private financial advisor from Katy, Texas, was indicted by a
federal grand jury in the U.S. District of Minnesota on 24 counts of false statements, wire
fraud, and money laundering. According to the indictment, Liner allegedly solicited more
than $400,000 in investments from the Upper and Lower Sioux Tribes of Minnesota in a
scheme that falsely represented to the tribes and other investors that their investments would
be placed in secret trading programs that would produce greater-than-market-rate returns.
The indictment alleged that Liner diverted those investments to his own personal benefit and
use.

Individual Indicted in False Application for Tribal Recognition

     Ronald Roberts, also known as Chief Golden Eagle and/or Sachem, Western
Mohegan Tribe and Nation, was indicted by a federal grand jury in the Northern District of
New York on five charges of misusing his son’s social security number in making
applications to financial institutions and in a sworn bankruptcy filing.

      More recently, a superseding indictment added a charge of making and using a false
document within the jurisdiction of the United States. Roberts allegedly filed an official
petition with the President of the United States and the Secretary of the Interior, seeking
federal recognition as an Indian Tribe. The petition, required to meet the federal regulations
to establish that an American Indian group exists as an Indian tribe, contained several
fraudulent documents.




Semiannual Report to the Congress: October 1, 2002 - March 31, 2003
                                       8
Significant Audit Activities and Investigations



                   We initiated our investigation when the BIA’s Branch of Acknowledgment and
              Research identified the questionable materials submitted with the petition and referred the
              matter to our investigators. Roberts also allegedly submitted the falsified documents to the
              U.S. District Court for the Northern District of New York.

              Former Kiowa Tribe Vice Chairman Pleads Guilty to Bribery Charges

                    Phillip C. “Yogie” Bread, the former vice chairman of the Kiowa Tribe of Oklahoma,
              pleaded guilty in U.S. District Court of Oklahoma to charges that he accepted bribes in
              exchange for business opportunities with Oklahoma Indian tribes, including the Kiowa
              Tribe. As reported in our October 2002 Semiannual Report, Bread held his elected office
              with the Kiowa Tribe while actively employed with the Oklahoma Department of
              Commerce as the director of tribal assistance, and, as such, abused both positions by
              accepting nearly $12,000 in bribes. As a result, Bread fraudulently deprived the citizens of
              Oklahoma of their right to honest services by accepting money from companies seeking to
              do business with Oklahoma Indian tribes while being paid for that same work by the state
              Commerce Department. Sentencing is pending.

              Tribal Chairman and Brother Plead Guilty in Vehicle-Swapping Scheme

                    Crow Tribal Chairman Clifford G. BirdinGround, who was indicted by a federal grand
              jury in Billings, Montana, on charges of conspiracy, bribery, and theft, entered a guilty plea
              and awaits sentencing. A $559,000 vehicle-swapping scheme that began less than 2 weeks
              after BirdinGround took office allowed vehicles owned by the tribe to be traded in to a local
              car dealership for credit against which BirdinGround’s friends and relatives purchased
              vehicles for their personal use. BirdinGround also used proceeds from the scheme to pay
              for repairs on his personal vehicles. BirdinGround pleded guilty to one count of bribery
              concerning programs receiving federal funds.

                   Alexander R. BirdinGround, brother of Clifford BirdinGround, pleaded guilty to
              charges of conspiracy and theft from an Indian tribal organization and was sentenced to 3
              years of probation and ordered to pay restitution to the Crow Tribe in the amount of
              $26,444.

              Former BIA School Superintendent Accused of Embezzling School Funds

                    Joyce Burr, the former superintendent of the Circle of Nations
              School (CNS) in Wahpeton, North Dakota, was charged by a federal
              grand jury in a two-count indictment with theft from a tribal organization.
              Burr allegedly used a CNS credit card to withdraw approximately
              $70,000 in cash at casinos and embezzled another $40,000 from CNS
              by obtaining two fraudulent loans. Burr used money from the loans to
              partially pay off her credit card debt at the school.

               Semiannual Report to the Congress: October 1, 2002 - March 31, 2003
                                                    9
                                          Significant Audit Activities and Investigations




      As the superintendent, Burr was responsible for ensuring that $3.8 million in BIA
monies to the CNS was properly administered. The investigation of Burr was worked
jointly with the FBI. Burr was terminated from CNS and is awaiting trial.

Criminal Investigator Resigns
After Misusing Credit Card

      A criminal investigator for the Internal
Affairs Division of the Office of Law
Enforcement Services, BIA, resigned from
his position after paying restitution for
$13,500 in unauthorized purchases made
on a government credit card. He admitted
to making personal purchases on the card
for over a year and a half, claiming financial difficulties, depression, and alcohol abuse as
reasons for using the card. The investigator’s purchases included groceries, meals at
restaurants, and cash advances used at a casino. At one point, the investigator was $5,000
behind on credit card payments.
Court Convicts Loan Program Employees, Orders $34,000 in Restitution

      The Tribal Loan Program of the Lac Vieux Desert Band of Lake Superior Chippewa
Indians of Watersmeet, Michigan, arranged over a million dollars in loans to 166 individuals,
half of whom defaulted on the loans. Our previous Semiannual Reports detailed, in part, the
sentencing of the former tribal chairman and the former tribal receptionist. Since then, Rhea
Reno, the former tribal payroll clerk, was sentenced to 2 years of probation, ordered to pay
restitution in the amount of $3,329, and ordered to pay a $750 fine. Ultimately, our
investigation resulted in the indictment, arrest, and conviction of four tribal staff members,
collectively 19 months of imprisonment and 132 months of probation, and orders to pay
restitution totaling nearly $340,000.

Court Charges BIA Investigator With Theft After Agents Find Rifle
     The U.S. District Court of Montana
sentenced BIA criminal investigator Marlin D.
Yarlott after he pleaded guilty to taking
evidence for personal use. Yarlott, who was
employed by Crow Agency Law Enforcement Services of the BIA, confiscated a rifle
during a trespassing investigation and kept the weapon for personal use after the owner was
convicted in court. OIG investigators found the rifle in the front seat of Yarlott’s pickup
truck. Yarlott resigned from his position and was sentenced to 2 years of probation and
192 hours of community service. He was also ordered to pay a $1,250 fine.

Semiannual Report to the Congress: October 1, 2002 - March 31, 2003
                                     10
Significant Audit Activities and Investigations


              Bureau of Land Management

              Father and Son Accused of Product Substitution Scheme

                   Boyd Goble, president of Goble Seed Company, and his son, Jeffrey Goble, were
              indicted by a federal grand jury in the District of Colorado on charges of wire fraud, mail
              fraud, false statements, aiding and abetting, and false claims in connection with a product
              substitution scheme.

                    The Bureau of Land Management (BLM) contracted for the delivery of nearly
              155,000 pounds of fourwing saltbush seed, collected from plants growing at higher altitudes
              in northern states, which is considered vital to the successful stabilization and restoration of
              lands debilitated by forest fires. According to the 39-count indictment, the Gobles
              submitted invoices to the BLM totaling more than $3 million after deliberately substituting
              inferior, less expensive seed, which would die or fail to thrive in the locations where the seed
              was to be planted.

                   The BLM terminated all contracts with the Gobles and the Goble Seed Company and,
              based on a referral by the OIG, the DOI Office of Acquisition and Property Management
              administratively suspended them from all Federal Government business transactions pending
              the outcome of the legal proceedings. Trial is pending.




               Semiannual Report to the Congress: October 1, 2002 - March 31, 2003
                                                    11
                                        Significant Audit Activities and Investigations



Bureau of Reclamation

BOR Budget Officer Sentenced After Accessing Pornography at Work
      Roger Schlosser, a budget officer in the Bureau
of Reclamation’s (BOR) Billings, Montana, office, was
sentenced in U.S. District Court of Montana to 10
months of imprisonment and 36 months of supervised
release following his conviction to charges that he
billed the government for hours of time that he spent
surfing pornographic Web sites. He was ordered to
pay restitution in the amount of $25,000. Over a 28-
month period, Schlosser charged the government for salary and compensation derived from
core duty, overtime, and holiday hours he actually spent accessing Internet pornography.




Semiannual Report to the Congress: October 1, 2002 - March 31, 2003
                                   12
Significant Audit Activities and Investigations



              Minerals Management Service
              Investigation Uncovers Multi-Million Dollar Royalty Underpayment
                     The Minerals Management Service (MMS) received more than $7 million from
              SEECO, Inc., a subsidiary of Southwestern Energy Company of Houston, Texas, following
              trial in the Circuit Court of Sebastian County, Arkansas. With assistance from MMS, our
              investigation uncovered a multi-million dollar royalty underpayment scheme by SEECO Inc.,
              in which SEECO and another subsidiary company of Southwestern conspired to underpay
              royalties on natural gas produced from federal leases. The United States leases certain
              federal properties to oil companies to develop oil and gas resources. The oil company
              produces and sells the minerals, then pays the MMS a percentage of the sales value as a
              royalty. In this case, SEECO did not enforce the minimum pricing and volume provisions of
              a gas sales contract with the other subsidiary, and accepted substantially less than it was
              entitled to. The court found that SEECO defrauded its royalty interest owners of millions of
              dollars; the MMS’s share of the award was $7,085,642.

              Deficiencies Weaken Minerals Management Service Audit Offices
                    Problems in quality control and audit quality affected the integrity of MMS’s audit
              offices – the Offshore and Onshore Compliance and Asset Management Offices. Our audit
              of these offices revealed that MMS failed to perform audits in accordance with all required
              professional standards and had control deficiencies that could seriously affect MMS’s ability
              to comply with required auditing standards. For example, MMS recreated a set of working
              papers that it had lost and improperly presented the documents as the originals.
              Additionally, MMS auditors could not provide working paper files for five audits.

                   MMS agreed with all of our recommendations and has already begun to take
              corrective action, which included disciplinary action for certain employees. MMS has also
              arranged for an external peer review during 2003. click here for full report

              Texaco Settles Royalty Issue on Production of Condensate

                    An audit of the royalty rate reduction program for operators of
              stripper oil well properties revealed that Texaco Exploration and
              Production, Inc., failed to pay proper royalties to the MMS on the
              production of condensate from the Texaco Table Rock Unit in
              Wyoming. A subsequent investigation resulted in Texaco reaching a
              settlement with the Department of Justice and MMS in the amount of
              $211,286 to resolve claims of underpayment of royalties on
              condensate production from the Table Rock Unit. In addition, based
              on information developed during the investigation, the State of New
              Mexico is seeking substantial additional royalties.


               Semiannual Report to the Congress: October 1, 2002 - March 31, 2003
                                                   13
                                          Significant Audit Activities and Investigations



National Park Service

United States Seeks Extradition in a $3.5 Million Fraud Case
     Gregory E. G. Thomlison of Ontario, Canada, was arrested by the Royal Canadian
Mounted Police in Toronto, based on an extradition request by the United States, and
currently awaits an extradition hearing. The extradition request was issued following
Thomlison’s indictment by a federal grand jury in the Southern District of California,
charging him with 67 counts of wire fraud, money laundering, and theft of government
property and illegal transfer of bankruptcy assets.

      As we reported in our September 2002 Semiannual Report, the indictment alleges that
Thomlison, owner/president of Destinet Services Corporation, defrauded his former clients
– the National Park Service (NPS) and the California State Department of Parks and
Recreation.

     According to the indictment, Destinet Services contracted with clients to manage
reservations and ticketing for campgrounds, sports venues, and other entertainment
ventures. Thomlison is accused of collecting reservation and ticketing fees from 1994 to
1997 and illegally transferring $3.5 million to bank accounts of shell companies in Canada,
which he controlled. Thomlison allegedly used the funds to support his lifestyle and his other
personal business interests. This continuing case is a joint effort of our audits and
investigations staff.

NPS Contract Computer Specialist Pleads Guilty to Embezzling

     Mitchell A. Nicholas, former NPS contract computer specialist in Washington, D.C.,
pleaded guilty in U.S. District Court of the District of Columbia to charges that he stole
NPS property and embezzled NPS money. For 3 years, while working for the Park
Service, Nicholas made unauthorized purchases of nearly $50,000 of computer equipment
using the government-issued credit cards of three other employees. The purchases were
transacted through a personal friend at a local computer supply company. Nicholas
personally picked up the computer equipment; however, he never delivered the property to
the NPS. Instead, Nicholas sold the computer equipment.

     In addition, Nicholas created a fictitious computer supply business and then used the
company to set up an account with an electronic credit card processing company to accept
credit card purchases. Nicholas processed more than $80,000 in NPS credit card
purchases for supplies and services through the fictitious business, which were never
provided. He also created and submitted false work orders and billing statements to the
NPS in support of his fraudulent scheme. Nicholas primarily used the money he embezzled
to pay his personal debts.

Semiannual Report to the Congress: October 1, 2002 - March 31, 2003
                                     14
Significant Audit Activities and Investigations


              Deficiencies in Contract Administration Lead to Excessive Costs
                   Poor business decisions by the former park superintendent and contracting officer in
              the administration of a contract for construction at the Bryce Canyon Visitor Center led to
              excessive costs, as follows:

                           » NPS selected a fixed unit-price contract that did not provide incentive to
                             the contractor for cost control or labor efficiency. This required significant
                             monitoring of contractor performance by the Federal Government.

                           » NPS did not sufficiently monitor the contract and performed only limited
                             construction supervision of the project.

                           » NPS used rough estimates of quantities and materials to prepare the bid
                             schedule. As a result, contract specifications were inaccurate, and, after
                             contract award, NPS had to increase 60 line items and add 45 new line
                             items for changes and additions to the project. Consequently, project costs
                             increased almost a million dollars, from $3.9 to $4.8 million – a 24 percent
                             increase.

                   The excessive contract costs contributed to deficit balances in the park’s recreation fee
              demonstration account in fiscal years 2000 and 2001. (Congress authorized the fee
              demonstration program to enable national parks and other federal agencies to test new fee
              programs to raise funds for infrastructure repair).

                  The above deficiencies resulted primarily from poor business decisions made by the
              former contracting officer and the former park superintendent.




               Semiannual Report to the Congress: October 1, 2002 - March 31, 2003
                                                   15
                                          Significant Audit Activities and Investigations


River Rafting Concessionaire Contracted
by NPS Debarred Following Sentencing
      Black Canyon Inc., a former river rafting
concessionaire contracted by the NPS to operate on the
Colorado River, was administratively debarred for a period
of 3 years by the DOI Office of Acquisition and Property
Management. This action followed the company’s
conviction for underreporting nearly $1.5 million in gross
revenues on its financial reports. The corporation
president, Larry Opfer; treasurer, Tim Richner; and
secretary, Ronald Opfer, were also debarred for a period
of 3 years. As we previously reported in our October
2002 Semiannual Report, Black Canyon, Inc., was required to pay a franchise fee to NPS
based on its gross revenue receipts. Black Canyon, Inc., entered into a contract with NPS
in 1988 that gave it exclusive rights to operate tours from the Hoover Dam in Nevada to
Willow Beach in Arizona.

NPS Has Not Established Priorities For the Use of Franchise Fees
      An audit of franchise fees collected from park concessionaires disclosed that NPS had
not implemented our previous recommendation that it prioritize its use of these fees. We
could not assess whether individual parks, which can keep up to 80 percent of the fees they
collect, in fact used the fees to address high-priority park needs. In addition, the parks we
visited were not reconciling financial data to ensure that concessionaires were paying
promptly or in the correct amounts. We notified DOI that the prior audit recommendation
should not be considered implemented and offered two suggestions to strengthen controls
over projects funded with franchise fees.       click here for full report

NPS Employees Disciplined for Violating Federal Travel Regulations
     Twelve senior NPS employees were disciplined for violating
Federal Travel Regulations after inappropriately charging travel
expenses to the government in order to attend a retirement party.
Our investigation revealed that a variety of business meetings were
intentionally scheduled and coordinated to coincide with the party.
Although business meetings were scheduled to begin on a
Monday, many employees arrived the previous Saturday to attend
the party and included these additional expenses on their travel
vouchers for reimbursement. In addition to the 12 members who
were disciplined, two additional employees retired prior to the
issuance of disciplinary actions.



Semiannual Report to the Congress: October 1, 2002 - March 31, 2003
                                     16
Significant Audit Activities and Investigations



              Office of Insular Affairs

              Pacific Field Liaison Reports Progress Working With Office of Insular Affairs
                    Our Insular Area field liaison for the Pacific, appointed in July 2002, reported progress
              in several areas: building the capacity of local Offices of Public Auditor in Pacific areas to
              audit local funds, working with the Office of Insular Affairs (OIA) to look at the adequacy
              of Insular Area government systems and controls that account for grant monies, and closing
              out unresolved audit recommendations. In this regard our field liaison reported that as of
              March 2003, his work with public auditors and elected officials had resulted in closing out
              29 open audit recommendations (eight reports). He also reported ongoing resolution efforts
              for another 18 reports. We believe that this concerted effort will help remedy the general
              lack of response by Pacific Insular Area governments to past audit recommendations.

              Follow-up Reveals Urgency of Working With Other Agencies
                    A follow-up audit on audit findings and recommendations pertaining to Insular Areas
              underscores a fundamental problem faced by the Department in correcting serious
              deficiencies. While the OIG is responsible for auditing Insular Area governments, the DOI
              does not have authority to enforce audit findings and recommendations for funds provided
              by other federal departments or for funds provided by the DOI that have federally imposed
              entitlement conditions. Most Insular Area funding falls into one of these two categories.
              For example, in our follow-up audit, we looked at findings pertaining to the use of federal
              funds totaling $26.5 million. Of this amount, $25.5 million was related to funds over which
              DOI had no control. For the remaining $1 million – over which DOI has control – we
              found that the Department did not take sufficient action to resolve findings pertaining to
              more than $100,000 of questioned costs. The OIA agreed with our recommendations to
              better monitor the disposition of findings and recommendations pertaining to Insular Area
              government use of all DOI funds, and it agreed to support efforts to strengthen DOI
              controls over departmental financial assistance to Insular Area governments.

                   This follow-up audit highlights the necessity of continuing to urge other federal agencies
              providing funds to the Insular Areas to become more involved in monitoring these funds and
              ensuring their proper use.
                                                 click here for full report




               Semiannual Report to the Congress: October 1, 2002 - March 31, 2003
                                                    17
                                                                     Significant Audit Activities and Investigations




                          Audits of Virgin Islands Programs Highlight Continuing Deficiencies
                                 Our five audits of Virgin Island programs and activities during this reporting period
                           disclosed the serious challenges that we continue to face in encouraging Insular Area
summary of these 5 reports governments to be fiscally responsible in managing grant funds. Serious deficiencies remain
2003-I-0002                uncorrected, and the government continues to demonstrate a lack of concern in responding
2003-I-0003                to our audit findings. Of the 34 recommendations made to the Government of the Virgin
2003-I-0012
                           Islands during this reporting period, 28 recommendations remain unresolved. The following
                           are areas of continued concern:
2003-I-0031
2003-I-0032                     » The failure to use funds for their intended purposes. This is a problem that has
                                  a direct adverse effect on the quality of life of Virgin Island residents. For example,
                                  we identified school construction that was delayed for nearly 2 years, a mental
                                  health facility that never opened, wastewater disposal projects that were delayed,
                                  and hurricane-recovery funds that were not effectively managed. Some funds were
                                  mismanaged, such as $29.6 million in operating funds and bond proceeds
                                  administered by the Public Finance Authority. Other funds were not spent at all,
                                  such as most of the $5.4 million available to the Department of Public Works. In
                                  the 2 years following the award, the Department spent only 11 percent, or
                                  $609,000, of the $5.4 million.

                                » The lack of standard business practices essential to financial accountability.
                                  All of our audits identified serious administrative and accounting deficiencies,
                                  including property management practices that were not sufficient to satisfactorily
                                  account for and safeguard equipment purchased with grant funds; improper
                                  procurement practices that allowed purchases without competition; poor records
                                  management; inadequate accounting practices that resulted in questioned costs,
                                  incorrect grant balances, and unreconciled records; and poor reporting practices to
                                  OIA that unnecessarily delayed projects.

                          Employee Sentenced After Being Charged With Wire Fraud
                               Sonia M. Foy, former collection agent/secretary for the Virgin Islands Lottery, was
                          sentenced to 5 years of probation and 100 hours of community service following her
                          conviction for a charge of wire fraud. As the collection agent for the Virgin Islands Lottery,
                          Foy was responsible for the collection and receipt of monies payable to the Government of
                          the Virgin Islands. Foy admitted to embezzling money from these lottery funds and was
                          ordered to pay restitution in the amount of $11,930.

                               This investigation was initiated through information received during the successful
                          investigation and prosecution of Anthony Dizon, former executive director of the U.S. Virgin
                          Islands Lottery.

                           Semiannual Report to the Congress: October 1, 2002 - March 31, 2003
                                                                18
Significant Audit Activities and Investigations



              Office of the Special Trustee for American Indians

              KPMG LLP Opinions on Office of the Special Trustee Qualified

                   The independent certified public accounting firm of KPMG LLP, under contract with
              the Office of the Special Trustee for American Indians (OST), rendered qualified opinions
              on the fiscal year 2001 Tribal and Other Trust Funds and Individual Indian Monies Trust
              Funds financial statements of the OST.

                   KPMG qualified its opinions because of the following:

                   » Cash balances in the financial statements were materially greater than balances
                     reported by the U.S. Treasury.

                   » Inadequacies in certain DOI accounting systems made it impractical to extend
                     auditing procedures to satisfy auditors regarding the fairness of Trust Fund balances.

                   » Certain parties for whom the Office of Trust Funds Management (OTFM) holds
                     monetary assets in trust do not agree with the balances recorded by the OTFM and
                     have filed or are expected to file claims against the U.S. Government.

                      Management agreed with our report’s three recommendations, which were the
              following:

                   » Continue to monitor progress toward completion of the various trust reform
                     subprojects managed by the BIA.

                   » Resolve financial reporting differences.

                   » Implement adequate controls over information technology systems.




               Semiannual Report to the Congress: October 1, 2002 - March 31, 2003
                                                   19
                                                                         Significant Audit Activities and Investigations


                              U.S. Fish and Wildlife Service

                              Questioned Reimbursements Identified For FWS Grants
summary of these 16 reports        Our reviews of the U.S. Fish and Wildlife Service (FWS) Sportfish and Wildlife
                              Restoration program grants, totaling about $504 million for 14 states and two territories,
2003-E-0001                   identified questioned costs and other significant issues, as follows:
2003-E-0002
                                   » Ten states and the two territories claimed $4.9 million that
2003-E-0003                          was ineligible for reimbursement. The grantees with the most
2003-E-0004                          significant problems were Nevada ($1,010,000) and the
                                     Commonwealth of the Northern Mariana Islands
2003-E-0006                          ($944,000).
2003-E-0007
                                   » Five states did not offset grant costs of $823,000 with
2003-E-0008
                                     revenues earned from commercial activities on lands
2003-E-0009                          purchased or managed with grant funds. Texas accounted
2003-E-0013                          for $604,000 of the total.

2003-E-0014                        » Five states did not return a total of $2.6 million of interest
2003-E-0015                          earned on hunting and fishing license revenues to their fish
                                     and wildlife programs. Georgia’s portion accounted for
2003-E-0016                          $1.9 million of the total.
2003-E-0017
                                   » Five states diverted over $5 million of revenue from the sale of state
2003-E-0018                          hunting and fishing licenses for purposes other than administering their fish and
2003-E-0019                          wildlife programs. Michigan alone used about $3 million in license revenues for law
                                     enforcement activities unrelated to its fish and wildlife program.
2003-E-0020
                                   Based on our reports, FWS is working with the states and territories to resolve these
                              matters.

                              Services Rendered by Outside Attorneys Did Not Constitute Legal Work
                                   A U.S. General Accounting Office (GAO) review of FWS’s Endangered Species
                              Program concluded that FWS inappropriately acquired legal services outside the
                              Department of the Interior, which, in turn, would be a violation of the Anti-Deficiency Act.
                              GAO based its conclusion on a legal opinion by the Department of the Interior’s Office of
                              the Solicitor. GAO noted that the Solicitor is solely responsible for the Department’s legal
                              work and such services should be procured with the Solicitor’s appropriation.




                              Semiannual Report to the Congress: October 1, 2002 - March 31, 2003
                                                                    20
Significant Audit Activities and Investigations




                    At the request of the Department, we conducted an independent evaluation of FWS’s
              use of these outside contractors. Our findings did not substantiate GAO’s conclusion.
              Rather, we determined that the services rendered by the attorneys did not constitute legal
              work but were consultative and investigatory in nature. Nonattorneys, such as human
              relations specialists, labor relations experts, and EEO investigators, routinely provide such
              services within DOI and other departments and agencies. Therefore, we concluded that the
              FWS had the authority to enter into such contracts, and the use of the Resource
              Management appropriation was proper.

              Biology Technician Embezzles Money Through Nonexistent Company

                    Scott Rickettson, biology technician, FWS, Medicine Lake, Montana, was indicted by
              a federal grand jury on charges of wire fraud, theft of money by a federal employee, theft of
              government property, forgery of a government obligation or contract, and false claims.
              According to the indictment, Rickettson made false statements on his application for federal
              employment. After becoming a biology technician, Rickettson allegedly submitted fraudulent
              Wildlife Extension Agreements, which caused the Ft. Peck Tribes to receive two FWS
              grants totaling $36,500 and then embezzled the $36,500 from the Fort Peck Tribes by
              submitting four fraudulent invoices from Wildlife Veterinary Consulting, a fictitious company
              that he created. Rickettson’s trial is pending.




               Semiannual Report to the Congress: October 1, 2002 - March 31, 2003
                                                   21
                                         Significant Audit Activities and Investigations



U.S. Geological Survey

USGS Needs Improve Security Over Critical Information Systems

      The U.S. Geological Survey (USGS) needs to
secure its critical information technology systems, which
are a primary repository of data on the nation’s mineral,
geologic, water, energy, and biological resources. The
systems also contain critical monitoring data on biological
and toxic contaminants and volcano and earthquake
hazards. Protection of these systems is essential to secure
the data from unauthorized access, misuse, and disruption
of service. We found, however, that USGS management
has not sufficiently addressed security or established a
permanent management program to ensure appropriate
security practices through the agency. USGS agreed with
our recommendations and agreed to take corrective actions to protect its systems.

Scientist Embezzles $34,000, Purchases Scuba Gear and Aquariums

      Gary W. Hill, a former USGS scientist in St. Petersburg, Florida, was sentenced in
federal court to 5 years probation and 6 months home detention for embezzling funds from
the DOI using his government credit card. Investigators uncovered numerous personal
purchases made with the card, including custom wheels and a stereo system for his personal
vehicle and salt-water aquarium systems for himself and his son. Hill also used the credit
card to buy a wet suit for his wife, then brought her along on a work-related, week-long
diving trip to Biscayne Bay. He originally claimed that the aquarium systems and wet suit
were essential for experiments he was conducting at work. Hill was ordered to pay a
$3,000 fine and $34,000 in restitution.




Semiannual Report to the Congress: October 1, 2002 - March 31, 2003
                                    22
                                         Appendix 1
                       Summary of Audit and Related Activities
                    From October 1, 2002, Through March 31, 2003

                                              AUDITS PERFORMED BY:
                                                            OTHER           NON-
                                                           FEDERAL        FEDERAL
                                                           AUDITORS      AUDITORS
                                                         (With Review (With Review
                                                         and Processing and Processing
                                         OIG STAFF        by OIG Staff) by OIG Staff)
                                          Internal,
                                         Grant and
                                          Contract
                                         Audits and      Contract and
                                           ICPs*         Grant Audits     Single Audits   TOTAL

REPORTS ISSUED TO:

Department/Office of the Secretary            9                0                3          12
Fish and Wildlife and Parks                   25               0               19          44
Indian Affairs                                3                0               184         187
Insular Affairs                               7                0                6          13
Land and Minerals Management                  8                0                8          16
Water and Science                             3                0                8          11
 Subtotal Reports Issued                      55               0               228         283

INDIRECT COST PROPOSALS (ICPs) NEGOTIATED FOR:

Indian Tribes and Organization               153               0                0          153
Insular Areas                                 3                0                0           3
State Agencies                                27               0                0          27
  Subtotal ICPs Negotiated                   183               0                0          183


     TOTAL Reports and ICPs                  238               0               228         466

_______________
*Indirect Cost Proposals
                  Semiannual Report to the Congress: October 1, 2002 - March 31, 2003
                                                   23
                                             Appendix 2

     Audit Reports Issued or Processed and Indirect Cost Proposals Negotiated
              During the 6-Month Period That Ended March 31, 2003

        This listing includes all internal reports (internal audits, advisory reports, and assessments), contract
and single audit reports issued, and indirect cost agreements negotiated during the 6-month period that
ended March 31, 2003. It provides report number, title, issue date, and monetary amounts identified in
each report (*Funds to be put to Better Use, ** Questioned Cost, *** Unsupported Cost and **** Lost
or Potential Additional Revenues).


INTERNAL REPORTS

Bureau of Land Management

2003-I-0007     Evaluation of the Procedures Used by the Bureau of Land Management’s National Business
                Center to Lease Space for the Kingman, Arizona, Field Office (12/10/2002)
2003-I-0024     Independent Auditors’ Report on the Bureau of Land Management’s Financial Statements
                for Fiscal Years 2002 and 2001 (02/28/2003)
2003-I-0036     Management Issues Identified During the Audit of the Bureau of Land Management’s Fiscal
                Year 2002 Financial Statements (03/17/2003)

Bureau of Reclamation

2003-I-0020     Independent Auditors’ Report on the Bureau of Reclamation’s Financial Audit Statements for
                Fiscal Years 2002 and 2001 (02/21/2003)
2003-I-0037     Management Issues Identified During the Audit of the Bureau of Reclamation’s Financial
                Statements for Fiscal Year 2002 (03/18/2003)

Departmental Offices

2003-I-0038     Independent Auditors’ Report on the Interior Franchise Fund’s Financial Statements for
                Fiscal Years 2002 and 2001 (03/21/2003)
2003-I-0041     Independent Auditors’ Report on the Departmental Offices’ Financial Statements for Fiscal
                Years 2002 and 2001 (03/31/2003)

Minerals Management Service

2003-I-0023     Audit of the Minerals Management Service Audit Offices (03/31/2003)
2003-I-0030     Independent Auditors’ Report on the Minerals Management Service Financial Statements for
                Fiscal Years 2002 and 2001 (03/07/2003)
2003-I-0033     Management Issues Identified During the Audit of the Minerals Management Service Audit
                Offices (03/17/2003)




                 Semiannual Report to the Congress: October 1, 2002 - March 31, 2003
                                                        24
Appendix 2 (continued)


Multi-Office

2003-I-0001    Payments to the District of Columbia Water and Sewer Authority (11/05/2002)
2003-I-0004    Oversight of KPMG’s Agreed Upon Procedures Reports for the Social Security
               Administration on Retirement, Health Benefits, and Life Insurance Withholdings/Contributions
               and Supplemental Head Count (11/15/2002)
2003-I-0005    Oversight of KPMG’s Agreed -Upon Procedures Reports for the Department of the Interior
               on Administration on Retirement, Health Benefits, and Life Insurance Withholdings/
               Contributions and Supplemental Head Count (11/15/2002)
2003-I-0014    Independent Auditor’s Report on the U.S. Department of the Interior’s Fiscal Year 2002
               Annual Report on Performance and Accountability (01/31/2003)
2003-I-0015    Independent Accountants’ Report on Applying Agreed-Upon Procedures for
               Intragovernmental Activity and Balances (02/06/2003)
2003-I-0016    Fiscal Year 2002 Independent Accountants’ Report on Applying Agreed-Upon Procedures for
               FACTS I Data Verification (02/06/2003)
2003-I-0018    Payments to the District of Columbia Water and Sewer Authority (02/26/2003)

National Park Service

2003-I-0009    Advisory Report on the Administration of the Contract to Rehabilitate and Expand the Bryce
               Canyon Visitor Center (01/22/2003)
2003-I-0013    Advisory Report on Yosemite National Park’s Museum Operations, National Park Service
               (03/31/2003)
2003-I-0021    Independent Auditors’ Report on the National Park Service’s Financial Statements for Fiscal
               Years 2002 and 2001 (02/25/2003)
2003-I-0027    Management Issues Identified During the Audit of the National Park Service’s Fiscal Year
               2002 Financial Statements (03/04/2003)
2003-I-0034    Collection and Use of Franchise Fees, National Park Service (03/17/2003)

Office of Insular Affairs

2003-I-0011    Oversight and Follow-up on Audit Findings and Recommendations Pertaining to Insular Area
               Governments’ Use of Federal Funding (02/14/2003)

Office of Surface Mining Reclamation and Enforcement

2003-I-0022    Independent Auditors’ Report on the Office of Surface Mining Reclamation and
               Enforcement’s Financial Statements for Fiscal Years 2002 and 2001 (02/28/2003)
2003-I-0035    Management Issues Identified During the Audit of the Office of Surface Mining Reclamation
               and Enforcement’s Fiscal Year 2002 Financial Statements (03/17/2003)




               Semiannual Report to the Congress: October 1, 2002 - March 31, 2003
                                                   25
                                                                              Appendix 2 (continued)


U.S. Fish and Wildlife Service

2003-I-0006    Advisory Report on Evaluation of Fish and Wildlife Service Contracts Charged to Resources
               Management Appropriation (11/29/2002)
2003-I-0017    Independent Accountant’s Report on the Application of Agreed Upon Procedures for the
               Aquatic Resources Trust Fund (02/24/2003)
2003-I-0039    Independent Auditors’ Report on the U.S. Fish and Wildlife Service’s Financial Statements
               for Fiscal Years 2002 and 2001 (03/26/2003)

U.S. Geological Survey

2003-I-0042    Improvements Needed in Security Over Information Technology Systems Critical to the
               Scientific Objectives of the U.S. Geological Survey (03/31/2003)

U.S. Virgin Islands

2003-I-0002    Public Finance Authority, Government of the Virgin Islands (11/22/2002) *$29,586,687,
               **$367,000, ***$367,000 & ****$571,000
2003-I-0003    Compliance with the Memorandum of Understanding Between the Governor of the Virgin
               Islands and the Secretary of the Interior (01/06/2003)
2003-I-0012    Grant for the Solid Waste and Wastewater Disposal Projects, Department of Public Works,
               Government of the Virgin Islands (02/18/2003)
2003-I-0029    Verification of Watch Quota and Jewelry Quota Data for Calendar Year 2002 Submitted by
               Firms Located in the U.S. Virgin Islands (03/07/2003)
2003-I-0031    Grant for Hazard Mitigation Projects, Virgin Islands Police Department, Government of the
               Virgin Islands (03/31/2003) *$467,765
2003-I-0032    Grant for the Hurricane Recovery Projects, Government of the Virgin Islands (03/31/2003)
               *$74,797 & **$1,012,323

CONTRACT AND GRANT AUDITS

National Park Service

2003-E-0012 Audit of Costs Incurred by Carter Enterprises, Inc., Under National Park Service Contract
            No. C1200000011 to Rehabilitate and Expand the Visitor Center at Bryce Canyon National
            Park in Utah (01/09/2003)

Office of the Special Trustee for American Indians

2003-E-0005 Audit of Final Contract Costs for Chavarria, Dunne, & Lamey LLC, Under Office of the
            Special Trustee Contract No. CMK00133396 (11/12/2002) **$108,405




                Semiannual Report to the Congress: October 1, 2002 - March 31, 2003
                                                   26
Appendix 2 (continued)


U.S. Fish and Wildlife Service

2003-E-0001 Costs Claimed by the U.S. Virgin Islands, Department of Planning and Natural Resources,
            Division of Fish and Wildlife, Under Federal Aid Grants from the U.S. Fish and Wildlife
            Service from October 1, 1996, through September 30, 1998 (10/07/2002) **$212,322
2003-E-0002 Costs Claimed by the Commonwealth of Pennsylvania Fish and Boat Commission, Under
            Federal Aid Grants From the U.S. Fish and Wildlife Service from January 1, 1996, through
            December 31, 1997 (11/04/2002) **$482,407, ***$220,197 & ****$7,572
2003-E-0003 Costs Claimed by the State of Hawaii Department of Land and Natural Resources, Under
            Federal Aid Grants from the U.S. Fish and Wildlife Service from July 1, 1998, through June
            30, 2000 (11/12/2002) **$420,910
2003-E-0004 Costs Claimed by the State of Minnesota, Department of Natural Resources, Under Federal
            Aid Grants from the U.S. Fish and Wildlife Service from July 1, 1997, through June 30, 1999
            (11/12/2002)
2003-E-0006 Costs Claimed by the Commonwealth of Pennsylvania Game Commission, Under Federal Aid
            Grants from the U.S. Fish and Wildlife Service from July 1, 1996, through June 30, 1998
            (12/20/2002)
2003-E-0007 Costs Claimed by the State of Ohio, Department of Natural Resources, Under Federal Aid
            Grants from the U.S. Fish and Wildlife Service from July 1, 1999, through October 1, 2001
            (12/23/2002) **$456,567
2003-E-0008 Costs Claimed by the State of Georgia, Department of Natural Resources, Wildlife
            Resources Division and Coastal Resources Division, Under Federal Aid Grants from the U.S.
            Fish and Wildlife Service from July 1, 1997, through June 30, 1999 (12/31/2002) **$596,616
            & ****$99,269
2003-E-0009 Costs Claimed by the State of Maine Department of Inland Fisheries and Wildlife, Under
            Federal Aid Grants from the U.S. Fish and Wildlife Service from July 1, 1996, through June
            30, 1998 (01/14/2003) ****$151,244
2003-E-0013 Costs Claimed by the Commonwealth of the Northern Mariana Islands, Department of Lands
            and Natural Resources, Under Federal Aid Grants from the U.S. Fish and Wildlife Service
            from October 1, 1996, through September 30, 1998 (01/22/2003) **$942,927
2003-E-0014 Costs Claimed by the State of Arizona, Department of Game and Fish, Under Federal Aid
            Grants from the U.S. Fish and Wildlife Service from July 1, 1998, through June 30, 2000
            (01/23/2003) **$60,426
2003-E-0015 Costs Claimed by the State of Maryland, Department of Natural Resources, Under Federal
            Aid Grants from the U.S. Fish and Wildlife Service from July 1, 1998, through June 30, 2000
            (01/24/2003)
2003-E-0016 Costs Claimed by the State of Kansas, Department of Wildlife and Parks, Under Federal Aid
            Grants from the U.S. Fish and Wildlife Service from July 1, 1999, through June 30, 2001
            (01/24/2003) **$9,679
2003-E-0017 Costs Claimed by the State of Michigan, Department of Natural Resources, Under Federal
            Aid Grants from the U.S. Fish and Wildlife Service from October 1, 1995, through September
            30, 1997 (02/05/2003) **$467,087
2003-E-0018 Costs Claimed by the State of Nevada, Department of Conservation and Natural Resources,
            Division of Wildlife, Under Federal Aid Grants from the U.S. Fish and Wildlife Service from
            July 1, 1996, through June 30, 1998 (02/26/2003) **$1,009,890 & ****$21,721



               Semiannual Report to the Congress: October 1, 2002 - March 31, 2003
                                                  27
                                                                            Appendix 2 (continued)


2003-E-0019 Costs Claimed by the State of Texas, Parks and Wildlife Department, Under Federal Aid
            Grants from the U.S. Fish and Wildlife Service from September 1, 1995, through August 31,
            1997 (03/03/2003) **$279,356 & ****$603,912
2003-E-0020 Costs Claimed by the Commonwealth of Kentucky, Department of Fish and Wildlife
            Resources, Under Federal Aid Grants from the U.S. Fish and Wildlife Service from July 1,
            1996, through June 3, 1998 (03/04/2003) **$95,968

SINGLE AUDITS

Bureau of Indian Affairs

2002-A-0479    Sac and Fox Nation of Missouri, Fiscal Year Ended September 30, 2001 (10/31/2002)
2003-A-0003    Sisseton-Wahpeton Sioux Tribe, Fiscal Year Ended September 30, 2000 (10/08/2002)
2003-A-0006    Quechan Indian Tribe, Fiscal Year Ended December 31, 1999 (10/15/2002)
2003-A-0007    Si Tanka College, Fiscal Year Ended September 30, 2000 (10/15/2002)
2003-A-0008    Kickapoo Tribe in Kansas, Fiscal Year Ended December 31, 1999 (10/15/2002)
2003-A-0009    Choctaw Nation of Oklahoma, Fiscal Year Ended September 30, 2000 (10/15/2002)
2003-A-0010    Organized Village of Akiachak, Akiachak IRA Council, Fiscal Year Ended December 31,
               1998 (10/15/2002)
2003-A-0011    Organized Village of Akiachak, Akiachak IRA Council, Fiscal Year Ended December 31,
               1999 (10/15/2002)
2003-A-0012    Organized Village of Akiachak, Akiachak IRA Council, Fiscal Year Ended December 31,
               2000 (10/15/2002)
2003-A-0013    Forest County Potawatomi Community, Fiscal Year Ended September 30, 2000 (10/25/2002)
2003-A-0014    Akiachak Native Community, Fiscal Year Ended December 31, 1997 (10/25/2002)
2003-A-0015    Nulato Tribal Council, Fiscal Year Ended September 30, 2001 (10/25/2002)
2003-A-0016    Rough Rock Community School, Fiscal Year Ended June 30, 1999 (10/25/2002)
2003-A-0017    Samish Indian Nation, Fiscal Year Ended December 31, 2000 (10/25/2002)
2003-A-0018    Tuolumne Band of Me-Wuk Indians, Fiscal Year Ended December 31, 2000 (10/25/2002)
2003-A-0019    Ouzinkie Tribal Council, Fiscal Year Ended September 30, 2000 (10/25/2002)
2003-A-0023    Fallon Paiute-Shoshone Tribe, Fiscal Year Ended December 31, 2000 (10/24/2002)
2003-A-0025    Hualapai Tribe, Fiscal Year Ended December 31, 2000 (10/24/2002)
2003-A-0026    Marty Indian School, Fiscal Year Ended June 30, 2000 (10/25/2002)
2003-A-0027    Yankton Sioux Tribe, Fiscal Year Ended September 30, 2001 (10/25/2002)
2003-A-0029    Oglala Lakota College, Fiscal Year Ended September 30, 2001 (10/25/2002)
2003-A-0030    Santa Clara Indian Pueblo, Fiscal Year Ended December 31, 1999 (10/25/2002)
2003-A-0031    Confederated Tribes of the Chehalis Reservation, Fiscal Year Ended December 31, 2000
               (10/25/2002) **$176,929
2003-A-0032    Crazy Horse School, Fiscal Year Ended June 30, 2000 (10/25/2002)
2003-A-0035    Hopi Junior/Senior High School, Fiscal Year Ended June 30, 2001 (10/24/2002)
2003-A-0036    North Fork Mono Rancheria, Fiscal Year Ended September 30, 2001 (10/25/2002)
               **$71,408
2003-A-0037    Ojibwa Indian School, Fiscal Year Ended June 30, 2001 (10/24/2002)
2003-A-0038    Coyote Valley Tribal Council, Fiscal Year Ended December 31, 1998 (10/25/2002)
2003-A-0039    Little Wound School Board, Inc., Fiscal Year Ended June 30, 2001 (10/24/2002)
2003-A-0040    Coyote Valley Tribal Council, Fiscal Year Ended December 31, 1999 (10/25/2002)
2003-A-0041    Pueblo of Nambe, Fiscal Year Ended September 30, 1999 (10/25/2002)

               Semiannual Report to the Congress: October 1, 2002 - March 31, 2003
                                                  28
Appendix 2 (continued)

2003-A-0042   Pueblo of Nambe, Fiscal Year Ended September 30, 2000 (10/25/2002)
2003-A-0044   Kickapoo Tribe of Kansas, Fiscal Year Ended December 31, 2000 (10/31/2002)
2003-A-0046   Chitina Traditional Village Council, Fiscal Year Ended September 30, 1999 (10/31/2002)
2003-A-0048   Spokane Tribe of Indians, Fiscal Year Ended September 30, 2000 (10/31/2002)
2003-A-0049   Southern Ute Indian Tribe, Fiscal Year Ended September 30, 1999 (11/20/2002)
2003-A-0050   Southern Ute Indian Tribe, Fiscal Year Ended September 30, 2000 (11/20/2002)
2003-A-0051   Choctaw Nation of Oklahoma, Fiscal Year Ended September 30, 2001 (11/04/2002)
2003-A-0053   Mississippi Band of Choctaw Indians, Fiscal Year Ended September 30, 2001 (11/04/2002)
2003-A-0054   Native Village of Gambell, Fiscal Year Ended September 30, 2001 (11/04/2002)
2003-A-0055   Bear River Band of Rohnerville Rancheria, Fiscal Year Ended December 31, 2001
              (11/08/2002)
2003-A-0056   Pueblo de San Ildefonso, Fiscal Year Ended December 31, 2000 (11/08/2002)
2003-A-0058   Oglala Sioux Tribe, Fiscal Year Ended December 31, 1999 (11/08/2002) **$1,795,918
2003-A-0060   Mooretown Rancheria, Fiscal Year Ended December 31, 2001 (11/12/2002)
2003-A-0061   Fort McDowell Yavapai Nation, Fiscal Year Ended September 30, 2001 (11/12/2002)
2003-A-0062   Chenega IRA Council, Fiscal Year Ended December 31, 2001 (11/12/2002)
2003-A-0063   Sherwood Valley Band of Pomo Indians, Fiscal Year Ended December 31, 2000
              (11/25/2002)
2003-A-0064   Cloverdale Rancheria of Pomo Indians, Fiscal Year Ended December 31, 2000 (11/25/2002)
2003-A-0065   Tohono O’odham Nation, Fiscal Year Ended September 30, 2001 (11/25/2002)
2003-A-0066   Pascua Yaqui Tribe of Arizona, Fiscal Year Ended September 30, 2001 (11/25/2002)
2003-A-0067   United Sioux Tribes of South Dakota Development Corporation, Fiscal Year Ended
              September 30, 2001 (11/25/2002)
2003-A-0069   California Valley Miwok Tribe, Fiscal Year Ended December 31, 2001 (11/25/2002)
2003-A-0070   Northeast Wisconsin Technical College District, Fiscal Year Ended June 30, 2001
              (11/25/2002)
2003-A-0071   Oglala Sioux Tribal Department of Public Safety, Fiscal Year Ended September 30, 1999
              (11/25/2002) **$17,661
2003-A-0072   Puyallup Tribe of Indians, Fiscal Year Ended September 30, 2001 (11/26/2002)
2003-A-0073   Red Cliff Band of Lake Superior Chippewa Indians, Fiscal Year Ended September 30, 2000
              (11/26/2002) **$61,366
2003-A-0076   Picayune Rancheria of the Chukchansi Indian Tribe, Fiscal Year Ended December 31, 1999
              (11/27/2002)
2003-A-0078   Nez Perce Tribe, Fiscal Year Ended September 30, 2001 (12/06/2002)
2003-A-0079   Turtle Mountain Band of Chippewa Indians, Fiscal Year Ended September 30, 2001
              (12/06/2002) **$477,170
2003-A-0080   Trinidad Rancheria, Fiscal Year Ended December 31, 2001 (12/06/2002)
2003-A-0081   Fond Du Lac Reservation, Fiscal Year Ended September 30, 2001 (12/17/2002)
2003-A-0082   Fort Belknap Indian Community, Fiscal Year Ended September 30, 2001 (12/17/2002)
2003-A-0084   Makah Tribal Council, Fiscal Year Ended December 31, 2001 (12/17/2002)
2003-A-0085   Sicangu Owayawa Oti (Rosebud Dormitory), Fiscal Year Ended June 30, 2001 (12/13/2002)
2003-A-0086   Native Village of Kwigillingok, Kwigillingok IRA Council, Fiscal Year Ended December 31,
              2001 (12/13/2002)
2003-A-0087   Northern Cheyenne Tribe, Fiscal Year Ended September 30, 2000 (12/13/2002)
2003-A-0088   Kickapoo Triditional Tribe of Texas, Fiscal Year Ended September 30, 2000 (12/17/2002)
2003-A-0089   Ho-Chunk Nation, Fiscal Year Ended June 30, 2001 (12/17/2002)
2003-A-0094   Lower Brule Sioux Tribe, Fiscal Year Ended September 30, 2001 (12/19/2002)

              Semiannual Report to the Congress: October 1, 2002 - March 31, 2003
                                                 29
                                                                           Appendix 2 (continued)

2003-A-0095 Ouzinkie Tribal Council, Fiscal Year Ended September 30, 2001 (12/19/2002)
2003-A-0097 Rincon Band of Luiseno Mission Indians, Fiscal Year Ended December 31, 2000
            (12/20/2002)
2003-A-0098 Pueblo De Cochiti, Fiscal Year Ended December 31, 2001 (12/20/2002)
2003-A-0100 Pyramid Lake Paiute Tribe, Fiscal Year Ended December 31, 2000 (12/20/2002)
            **$1,374,912
2003-A-0101 San Carlos Apache Tribe, Fiscal Year Ended September 30, 2001 (12/20/2002)
2003-A-0102 Cankdeska Cikana Community College, Fiscal Year Ended September 30, 2001 (12/20/2002)
2003-A-0103 Native American Fish & Wildlife Society, Incorporated, Fiscal Year Ended December 31,
            2001 (12/20/2002)
2003-A-0104 Confederated Salish and Kootenai Tribes of the Flathead Nation, Fiscal Year Ended
            September 30, 2001 (12/26/2002)
2003-A-0105 Blackfeet Tribe of the Blackfeet Indian Reservation, Fiscal Year Ended September 30, 2000
            (12/31/2002)
2003-A-0106 Tuluksak Native Community, Fiscal Year Ended December 31, 2001 (01/02/2003)
2003-A-0107 Fort McDowell Mohave-Apache Indian Community, Fiscal Year Ended September 30, 1999
            (01/15/2003)
2003-A-0108 Pleasant Point Passamaquoddy Tribal Council, Fiscal Year Ended September 30, 2000
            (01/15/2003)
2003-A-0110 Yavapai-Prescott Indian Tribe, Fiscal Year Ended December 31, 2001 (01/17/2003)
2003-A-0111 Lower Sioux Indian Community, Fiscal Year Ended September 30, 1999 (01/17/2003)
2003-A-0112 Lower Sioux Indian Community, Fiscal Year Ended September 30, 2000 (01/17/2003)
2003-A-0113 Pueblo of Isleta, Fiscal Year Ended December 31, 1998 (01/17/2003) **$1,004
2003-A-0114 Pueblo of Isleta, Fiscal Year Ended December 31, 1999 (01/17/2003)
2003-A-0115 Jicarilla Apache Nation, Fiscal Year Ended December 31, 2001 (01/17/2003)
2003-A-0116 Nooksack Indian Tribe, Fiscal Year Ended December 31, 2000 (01/17/2003)
2003-A-0117 Jicarilla Apache Nation, Fiscal Year Ended December 31, 2000 (01/17/2003)
2003-A-0118 Bay Mills Community College, Fiscal Year Ended June 30, 2001 (01/17/2003)
2003-A-0119 Stevens Village Council, Fiscal Year Ended September 30, 1999 (01/17/2003)
2003-A-0120 Sisseton-Wahpeton Community College, Fiscal Year Ended June 30, 2000 (01/17/2003)
2003-A-0121 San Juan Pueblo, Fiscal Year Ended December 31, 2001 (01/17/2003)
2003-A-0122 Stevens Village Council, Fiscal Year Ended September 30, 2001 (01/17/2003)
2003-A-0123 Wampanoag Tribe of Gay Head (Aquinnah), Fiscal Year Ended September 30, 2001
            (01/17/2003) **$183,616
2003-A-0124 Iowa Tribe of Kansas and Nebraska, Fiscal Year Ended December 31, 2001 (01/17/2003)
2003-A-0125 Joint Programs of the Shoshone and Arapaho Tribes of the Wind River Reservation, Fiscal
            Year Ended December 31, 2001 (01/17/2003)
2003-A-0126 Penobscot Indian Nation, Fiscal Year Ended September 30, 2001 (01/17/2003)
2003-A-0127 Aztec High School Dormitory School Board Association, Incorporated, Fiscal Year Ended
            June 30, 2001 (01/17/2003)
2003-A-0128 Tonto Apache Tribe, Fiscal Year Ended December 31, 1997 (01/17/2003) **$83,757
2003-A-0129 St. Michaels Association for Special Education, Incorporated, Fiscal Year Ended September
            30, 2001 (01/17/2003)
2003-A-0130 Native Village of Selawik, Fiscal Year Ended December 31, 2001 (01/17/2003)
2003-A-0131 Native Village of Selawik, Fiscal Year Ended December 31, 2000 (01/17/2003)
2003-A-0132 Copper River Native Association, Incorporated, Fiscal Year Ended September 30, 2001
            (01/23/2003)
2003-A-0133 Three Affiliated Tribes, Fiscal Year Ended September 30, 2000 (01/24/2003)

               Semiannual Report to the Congress: October 1, 2002 - March 31, 2003
                                                 30
Appendix 2 (continued)


2003-A-0134   Pueblo of Laguna, Fiscal Year Ended February 28, 2002 (01/24/2003) **$572
2003-A-0135   Pueblo of Zuni, Fiscal Year Ended December 31, 2001 (01/24/2003)
2003-A-0136   Hotevilla Bacavi Community School, Fiscal Year Ended June 30, 2001 (01/24/2003)
2003-A-0140   Squaxin Island Tribe, Fiscal Year Ended September 30, 2001 (01/23/2003)
2003-A-0141   Bay Mills Indian Community, Fiscal Year Ended December 31, 2000 (01/23/2003)
2003-A-0143   Tyme Maidu Tribe, Berry Creek Rancheria, Fiscal Year Ended December 31, 2001
              (01/23/2003)
2003-A-0144   Skokomish Indian Tribe, Fiscal Year Ended September 30, 2001 (01/23/2003)
2003-A-0145   Quinault Indian Nation, Fiscal Year Ended September 30, 2001 (01/23/2003)
2003-A-0146   Kaw Nation of Oklahoma, Fiscal Year Ended December 31, 2001 (01/23/2003)
2003-A-0147   Native Village of St. Michael, Fiscal Year Ended December 31, 2001 (01/23/2003)
2003-A-0148   Shoalwater Bay Indian Tribe, Fiscal Year Ended September 30, 2001 (01/23/2003)
2003-A-0151   Pueblo of Acoma, Fiscal Year Ended December 31, 2001 (01/30/2003)
2003-A-0152   Northway Village Council, Fiscal Year Ended December 31, 1999 (01/30/2003) **$10,409
2003-A-0153   Crow Tribe of Indians, Fiscal Year September 30, 2001 (01/30/2003) **$16,236
2003-A-0155   Navajo Nation and Related Tribal Entities, Fiscal Year Ended September 30, 2000
              (01/31/2003)
2003-A-0156   Aroostook Band of Micmacs, Fiscal Year Ended December 31, 2001 (01/30/2003)
2003-A-0157   Seneca Nation of Indians, Fiscal Year Ended September 30, 2001 (01/30/2003)
2003-A-0158   Redding Rancheria, Fiscal Year Ended December 31, 2001 (01/30/2003)
2003-A-0159   Yavapai-Apache Nation, Fiscal Year Ended December 31, 2001 (01/30/2003)
2003-A-0160   Southern Ute Indian Tribe, Fiscal Year Ended September 30, 2001 (01/30/2003)
2003-A-0161   Sicangu Owayawa Oti (Rosebud Dormitory), Fiscal Year Ended June 30, 2002 (01/30/2003)
2003-A-0162   Marty Indian School, Fiscal Year Ended June 30, 2001 (01/31/2003)
2003-A-0163   Nome Eskimo Community, Fiscal Year Ended December 31, 1999 (01/31/2003)
2003-A-0164   Pueblo of Nambe, Fiscal Year Ended September 30, 2001 (01/31/2003)
2003-A-0165   Nooksack Indian Tribe, Fiscal Year Ended December 31, 2001 (01/31/2003) **$1,035,634
2003-A-0166   Chippewa Cree Tribe, Fiscal Year Ended September 30, 2001 (01/31/2003)
2003-A-0168   Osage Tribal Council, Fiscal Year Ended June 30, 2001 (02/05/2003)
2003-A-0169   Karuk Tribe of California, Fiscal Year Ended September 30, 2001 (02/05/2003)
2003-A-0170   Round Valley Indian Tribes of the Round Valley Reservation, California, Fiscal Year Ended
              December 31, 2000 (02/05/2003)
2003-A-0171   Cheyenne and Arapaho Tribe of Oklahoma, Fiscal Year Ended December 31, 2000
              (02/05/2003)
2003-A-0173   Ch’ooshgai Community School, Fiscal Year Ended June 30, 2000 (02/07/2003) **$1,762
2003-A-0174   Ch’ooshgai Community School, Fiscal Year Ended June 30, 1999 (02/07/2003) **$6,954
2003-A-0176   Quileute Tribe, Fiscal Year Ended September 30, 2001 (02/05/2003)
2003-A-0177   Hualapai Tribe, Fiscal Year Ended December 31, 2001 (02/05/2003)
2003-A-0178   Cocopah Indian Tribe, Fiscal Year Ended December 31, 2000 (02/05/2003) **$27,772
2003-A-0179   Sac and Fox Nation of Oklahoma, Fiscal Year Ended September 30, 2001 (02/12/2003)
2003-A-0180   Sokaogon Chippewa Community (Mole Lake Band of Lake Superior Chippewa Indians),
              Fiscal Year Ended September 30, 2001 (02/12/2003)
2003-A-0181   Kenaitze Indian Tribe, Fiscal Year Ended September 30, 2001 (02/12/2003)
2003-A-0182   Pechanga Band of Luiseno Mission Indians, Fiscal Year Ended September 30, 2001
              (02/12/2003)
2003-A-0183   Confederated Tribes of Coos, Lower Umpqua and Siuslaw Indians, Fiscal Year Ended
              December 31, 2001 (02/12/2003)

               Semiannual Report to the Congress: October 1, 2002 - March 31, 2003
                                                 31
                                                                           Appendix 2 (continued)


2003-A-0184   Burns Paiute Tribe, Fiscal Year Ended December 31, 2001 (02/12/2003)
2003-A-0185   Seminole Tribe of Florida, Fiscal Year Ended June 30, 2000 (02/12/2003)
2003-A-0186   Pawnee Nation of Oklahoma, Fiscal Year Ended December 31, 2001 (02/12/2003)
2003-A-0188   Huron Potawatomi, Incorporated, Fiscal Year Ended December 31, 2001 (02/14/2003)
2003-A-0189   Dry Creek Rancheria Band of Pomo Indians, Fiscal Year Ended December 31, 1999
              (02/20/2003)
2003-A-0190   Dry Creek Rancheria Band of Pomo Indians, Fiscal Year Ended December 31, 2000
              (02/20/2003) **$58,528
2003-A-0191    Sherwood Valley Band of Pomo Indians, Fiscal Year Ended December 31, 2001
              (02/20/2003)
2003-A-0192   Tuolumne Band of Me-Wuk Indians, Fiscal Year Ended December 31, 2001 (02/20/2003)
2003-A-0194   Red Cliff Band of Lake Superior Chippewa Indians, Fiscal Year Ended September 30, 2001
              (02/20/2003)
2003-A-0196   Porcupine School, Fiscal Year Ended June 30, 2000 (02/26/2003) **$50,351
2003-A-0197   Puyallup Tribe of Indians, Fiscal Year Ended September 30, 2000 (02/26/2003)
2003-A-0199   Sisseton-Wahpeton Community College, Fiscal Year Ended June 30, 2001 (02/28/2003)
2003-A-0200   Native Village of St. Michael, Fiscal Year Ended December 31, 1999 (02/28/2003) **$560
2003-A-0202   Confederated Tribes of the Grand Ronde Community of Oregon, Fiscal Year Ended
              December 31, 2001 (03/28/2003)
2003-A-0203   Kaibab Band of Paiute Indians, Fiscal Year Ended December 31, 2001 (02/28/2003)
2003-A-0204   Leech Lake Band of Ojibwe, Fiscal Year Ended June 30, 2001 (02/28/2003)
2003-A-0205   Twenty-Nine Palms Band of Mission Indians Special Revenue Fund, Fiscal Year Ended
              December 31, 1999 (02/28/2003) **$22,321
2003-A-0206   Nazlini Community School, Incorporated, Fiscal Year Ended June 30, 2000 (03/02/2003)
2003-A-0207   Tunica-Biloxi Tribe of Louisiana, Fiscal Year Ended December 31, 2001 (03/06/2003)
2003-A-0208   Metlakatla Indian Community, Fiscal Year Ended September 30, 2001 (03/03/2003)
2003-A-0209   Chickaloon Village Traditional Council, Fiscal Year Ended December 31, 2000 (03/03/2003)
2003-A-0210   Bering Sea Fishermen’s Association, Fiscal Year Ended June 30, 2001 (03/06/2003)
2003-A-0211   Pueblo of Tesuque, Fiscal Year Ended December 31, 2001 (03/06/2003)
2003-A-0212   Big Sandy Rancheria, Fiscal Year Ended December 31, 2000 (03/06/2003)
2003-A-0213   Aztec High School Dormitory School Board Association, Incorporated, Fiscal Year Ended
              June 30, 2002 (03/06/2003)
2003-A-0214   Santee Sioux Tribe of Nebraska, Fiscal Year Ended September 30, 2001 (03/06/2003)
2003-A-0215   Chitina Traditional Indian Village Council, Fiscal Year Ended September 30, 2000
              (03/06/2003)
2003-A-0217   Pueblo de San Ildefonso, Fiscal Year Ended December 31, 2001 (03/06/2003)
2003-A-0218   College of the Menominee Nation, Fiscal Year Ended June 30, 2001 (03/06/2003)
2003-A-0219   Cibecue Community Education Board, Incorporated, Fiscal Year Ended June 30, 2001
              (03/06/2003)
2003-A-0220   Taos Pueblo Central Management System, Fiscal Year Ended December 31, 2001
              (03/06/2003)
2003-A-0221   Flandreau Santee Sioux Tribe, Fiscal Year Ended December 31, 2002 (03/06/2003)
2003-A-0222   Chemehuevi Indian Tribe, Fiscal Year Ended December 31, 2001 (03/06/2003)
2003-A-0223   Lower Sioux Indian Community, Fiscal Year Ended September 30, 2001 (03/06/2003)
2003-A-0225   Navajo Area School Board Association, Fiscal Year Ended September 30, 1998 (03/06/2003)
2003-A-0227   Native Village of Unalakleet, Fiscal Year Ended December 31, 2000 (03/06/2003) **$75,838
2003-A-0228   Native Village of Unalakleet, Fiscal Year Ended December 31, 1998 (03/06/2003) **$14,479

               Semiannual Report to the Congress: October 1, 2002 - March 31, 2003
                                                 32
Appendix 2 (continued)

2003-A-0229 Bay Mills Community College, Fiscal Year Ended June 30, 2002 (03/06/2003)
2003-A-0230 Independent School District Number 4, Fiscal Year Ended June 30, 2002 (03/26/2003)

Bureau of Land Management

2003-A-0034 South Florida Water Management District, Fiscal Year Ended September 30, 2001
            (10/25/2002)
2003-A-0052 North Slope Borough, Fiscal Year Ended June 30, 2001 (11/04/2002)
2003-A-0093 Pima County, Arizona, Fiscal Year Ended June 30, 2001 (12/18/2002)
2003-A-0139 Henderson County, Illinois, Fiscal Year Ended November 30, 2001 (01/23/2003)
2003-A-0142 Foundation for Voluntary Land Exchanges, Fiscal Year Ended December 31, 2001
            (01/23/2003) **$2,458

Bureau of Reclamation

2003-A-0021 Water Replenishment District of Southern California, Fiscal Year Ended June 30, 2000
            (10/25/2002) **$22,921
2003-A-0024 Santa Fe City, New Mexico, Fiscal Year Ended June 30, 2001 (10/25/2002)
2003-A-0028 Stanfield Elementary School District No. 24, Fiscal Year Ended June 30, 2001 (10/25/2002)
2003-A-0047 New Mexico, Eastern Plains Council of Governments, Fiscal Year Ended June 30, 2001
            (10/25/2002)
2003-A-0059 Fort Peck Rural County Water District, Incorporated, Fort Peck, Montana, Fiscal Year Ended
            June 30, 2001 (11/12/2002)

Federated States of Micronesia

2003-A-0150 College of Micronesia, Federated States of Micronesia, Fiscal Year Ended September 30,
            2001 (01/27/2003)

Guam

2003-A-0175 University of Guam, Fiscal Year Ended September 30, 2001 (02/07/2003)

Minerals Management Service

2003-A-0057 Trona Joint Unified School District, Fiscal Year Ended June 30, 2001 (11/08/2002)

National Park Service

2003-A-0002 University of Denver (Colorado Seminary), Fiscal Year Ended June 30, 2001 (10/11/2002)
2003-A-0022 Sotterley Foundation, Incorporated, Fiscal Year Ended December 31, 2001 (10/24/2002)
2003-A-0043 National Academy of Public Administration Foundation and Affiliate, Fiscal Year Ended
            September 30, 2001 (10/31/2002)
2003-A-0045 Silos and Smokestacks National Heritage Area, Fiscal Year Ended December 31, 2001
            (10/31/2002)
2003-A-0068 Allen University, Fiscal Year Ended June 30, 2001 (11/25/2002)
2003-A-0075 Larimer County, Colorado, Fiscal Year Ended December 31, 2001 (11/27/2002)

               Semiannual Report to the Congress: October 1, 2002 - March 31, 2003
                                                  33
                                                                           Appendix 2 (continued)

2003-A-0172 National Park Foundation, Fiscal Year Ended June 30, 2001 (02/07/2003)

Office of Surface Mining Reclamation and Enforcement

2003-A-0074 Illinois, Fiscal Year Ended June 30, 2001 (11/26/2002) **$291,857
2003-A-0077 Campbell County School District No. 1, Fiscal Year Ended June 30, 2001 (11/26/2002)

Office of the Secretary

2003-A-0001 Harvard University, Fiscal Year Ended June 30, 2001 (10/03/2002)
2003-A-0187 SRI International, Fiscal Year Ended December 29, 2001 (02/14/2003)
2003-A-0195 Department of Agriculture, Hawaii, Fiscal Year Ended June 30, 2000 (02/20/2003)
            **$12,269

Republic of Palau

2003-A-0149 Palau Community Action Agency, Fiscal Year Ended September 30, 2001 (01/27/2003)
2003-A-0154 Republic of Palau National Government, Fiscal Year Ended September 30, 2001
            (01/31/2003)

Republic of the Marshall Islands

2003-A-0109 Republic of the Marshall Islands, Fiscal Year Ended September 30, 2001 (01/15/2003)

U.S. Fish and Wildlife Service

2003-A-0004 National Fish and Wildlife Foundation, Fiscal Year Ended September 30, 2001 (10/11/2002)
2003-A-0005 University System of Maryland, Fiscal Year Ended June 30, 2001 (10/11/2002)
2003-A-0020 Michigan, Department of Natural Resources, Fiscal Year Ended September 30, 2001
            (10/24/2002)
2003-A-0033 University of Massachusetts, Fiscal Year Ended June 30, 2000 (10/25/2002)
2003-A-0096 Kansas, Fiscal Year Ended June 30, 2001 (12/20/2002)
2003-A-0099 Maine, Fiscal Year Ended June 30, 2001 (12/20/2002)
2003-A-0137 New Jersey, Fiscal Year Ended June 30, 2001 (01/24/2003)
2003-A-0198 The Tides Center, Fiscal Year Ended December 31, 2001 (02/28/2003)
2003-A-0201 State Forestry Commission, Fiscal Year Ended June 30, 2001 (02/28/2003)
2003-A-0216 University of New Mexico, Fiscal Year Ended June 30, 2002 (03/06/2003)
2003-A-0224 Yukon River Drainage Fisheries Association, Fiscal Year Ended June 30, 2001 (03/06/2003)
2003-A-0226 Arkansas Game and Fish Commission, Fiscal Year Ended June 30, 2001 (03/06/2003)
            **$253,722

U.S. Geological Survey

2003-A-0092 Wayne State University, Fiscal Year Ended September 30, 2001 (12/18/2002)
2003-A-0138 Alfred University, Fiscal Year Ended June 30, 2001 (01/23/2003)




                Semiannual Report to the Congress: October 1, 2002 - March 31, 2003
                                                 34
Appendix 2 (continued)

2003-A-0193 New Mexico Highlands University, Fiscal Year Ended June 30, 2001 (02/20/2003)

U.S. Virgin Islands

2003-A-0167 Government of the Virgin Islands, Fiscal Year Ended September 30, 2001 (02/04/2003)

INDIRECT COST PROPOSALS

Bureau of Indian Affairs

2003-P-0001 Mississippi Band of Choctaw Indians, Fiscal Year Ended September 30, 2001 (10/01/2002)
2003-P-0002 Mississippi Band of Choctaw Indians, Fiscal Year Ended September 30, 2002 (10/01/2002)
            *$301,259
2003-P-0003 Shoalwater Bay Indian Tribe, Fiscal Year Ended September 30, 2002 (10/01/2002) *$48,879
2003-P-0004 Native Village of Tanana Tribal Council, Fiscal Year Ended September 30, 2001
            (10/01/2002)
2003-P-0005 Native Village of Tanana Tribal Council, Fiscal Year Ended September 30, 2001
            (10/01/2002)
2003-P-0006 Native Village of Tanana Tribal Council, Fiscal Year Ended September 30, 2003
            (10/01/2002)
2003-P-0007 Wells Band Council of the Te-Moak Tribe of Western Shoshone, Fiscal Year Ended
            September 30, 2002 (10/01/2002)
2003-P-0008 Wells Band Council of the Te-Moak Tribe of Western Shoshone, Fiscal Year Ended
            September 30, 2003 (10/01/2002)
2003-P-0012 Native Village of Gambell, Fiscal Year Ended December 31, 1999 (10/02/2002)
2003-P-0013 Native Village of Gambell, Fiscal Year Ended December 31, 2000 (10/02/2002)
2003-P-0014 Native Village of Gambell, Fiscal Year Ended December 31, 2001 (10/02/2002)
2003-P-0015 Native Village of Gambell, Fiscal Year Ended December 31, 2002 (10/02/2002)
2003-P-0016 Fort Bidwell Indian Community, Fiscal Year Ended September 30, 2001 (10/02/2002)
2003-P-0017 Fort Bidwell Indian Community, Fiscal Year Ended September 30, 2002 (10/02/2002)
            *$1,283
2003-P-0018 Owens Valley Indian Water Commission, Fiscal Year Ended June 30, 2003 (10/02/2002)
            *$6,454
2003-P-0020 Menominee Indian Tribe of Wisconsin, Fiscal Year Ended September 30, 2002 (10/03/2002)
2003-P-0021 Peoria Tribe of Indians of Oklahoma, Fiscal Year Ended March 31, 2003 (10/03/2002)
            *$39,930
2003-P-0023 Kalispel Tribe of Indians, Fiscal Year Ended September 30, 2002 (10/03/2002)
2003-P-0024 Kalispel Tribe of Indians, Fiscal Year Ended September 30, 2003 (10/03/2002)
2003-P-0025 Confederated Tribes of the Grand Ronde Community of Oregon, Fiscal Year Ended
            December 31, 2002 (10/03/2002)
2003-P-0026 Las Vegas Paiute Tribe, Fiscal Year Ended December 31, 2002 (10/04/2002) *$7,855
2003-P-0027 Upper Skagit Indian Tribe, Fiscal Year Ended December 31, 2001 (10/04/2002) *$9,150
2003-P-0028 Upper Skagit Indian Tribe, Fiscal Year Ended December 31, 2002 (10/04/2002)
2003-P-0029 Karuk Tribe of California, Fiscal Year Ended September 30, 2001 (10/04/2002) *$77,542
2003-P-0030 Fort Mojave Indian Tribe, Fiscal Year Ended September 30, 1997 (10/04/2002)
2003-P-0031 Fort Mojave Indian Tribe, Fiscal Year Ended September 30, 1998 (10/04/2002)
2003-P-0032 Fort Mojave Indian Tribe, Fiscal Year Ended September 30, 1999 (10/04/2002)
2003-P-0033 Fort Mojave Indian Tribe, Fiscal Year Ended September 30, 2000 (10/04/2002)

               Semiannual Report to the Congress: October 1, 2002 - March 31, 2003
                                                 35
                                                                          Appendix 2 (continued)

2003-P-0034 Fort Mojave Indian Tribe, Fiscal Year Ended September 30, 2001 (10/04/2002)
2003-P-0035 Fort Mojave Indian Tribe, Fiscal Year Ended September 30, 2002 (10/04/2002)
2003-P-0041 Match-E-Be-Nash-She-Wish-Band of Pottawatomi Indians, Fiscal Year Ended September 30,
            2002 (10/08/2002)
2003-P-0042 White Earth Reservation, Fiscal Year Ended September 30, 2002 (10/09/2002)
2003-P-0043 Pueblo of Santo Domingo, Fiscal Year Ended September 30, 2003 (10/09/2002) *$5,045
2003-P-0044 Nez Perce Tribe, Fiscal Year Ended December 31, 2002 (10/09/2002)
2003-P-0045 Redding Rancheria, Fiscal Year Ended December 31, 2002 (10/09/2002) *$41,720
2003-P-0046 Nulato Tribal Council, Fiscal Year Ended September 30, 2003 (10/09/2002) *$3,325
2003-P-0048 Ramona Band of Cahuilla Mission Indians of California, Fiscal Year Ended December 31,
            2002 (10/11/2002)
2003-P-0049 Washoe Tribe of Nevada and California, Fiscal Year Ended December 31, 2002
            (10/11/2002)
2003-P-0050 Ute Mountain Ute Tribe, Fiscal Year Ended September 30, 1996 (10/15/2002)
2003-P-0051 Ute Mountain Ute Tribe, Fiscal Year Ended September 30, 1997 (10/15/2002)
2003-P-0052 Ute Mountain Ute Tribe, Fiscal Year Ended September 30, 1998 (10/15/2002)
2003-P-0053 Ute Mountain Ute Tribe, Fiscal Year Ended September 30, 1999 (10/15/2002)
2003-P-0054 Ute Mountain Ute Tribe, Fiscal Year Ended September 30, 2000 (10/15/2002)
2003-P-0055 Ute Mountain Ute Tribe, Fiscal Year Ended September 30, 2001 (10/15/2002)
2003-P-0056 Ute Mountain Ute Tribe, Fiscal Year Ended September 30, 2002 (10/15/2002)
2003-P-0057 Sac and Fox Tribe of the Mississippi in Iowa, Fiscal Year Ended September 30, 2003
            (10/15/2002) *$95,827
2003-P-0058 Sisseton-Wahpeton Sioux Tribe, Fiscal Year Ended September 30, 2000 (10/16/2002)
2003-P-0059 Sisseton-Wahpeton Sioux Tribe, Fiscal Year Ended September 30, 2001 (10/16/2002)
2003-P-0060 Iowa Tribe of Oklahoma, Fiscal Year Ended December 31, 2001 (10/16/2002)
2003-P-0062 Mentasta Traditional Council, Fiscal Year Ended September 30, 2000 (10/16/2002) *$57,033
2003-P-0063 Mentasta Traditional Council, Fiscal Year Ended September 30, 2001 (10/16/2002)
2003-P-0064 Mentasta Traditional Council, Fiscal Year Ended September 30, 2002 (10/16/2002)
2003-P-0065 Newhalen Tribal Council, Fiscal Year Ended September 30, 2003 (10/16/2002) *$3,453
2003-P-0067 Kashia Band of Pomo Indians of the Stewarts Point Rancheria, Fiscal Year Ended December
            31, 2002 (10/16/2002)
2003-P-0068 Hydaburg Cooperative Association, Fiscal Year Ended December 31, 2002 (10/17/2002)
2003-P-0069 Hydaburg Cooperative Association, Fiscal Year Ended December 31, 2003 (10/17/2002)
2003-P-0071 Pueblo of Isleta, Fiscal Year Ended December 31, 2001 (10/17/2002)
2003-P-0072 Pueblo of Isleta, Fiscal Year Ended December 31, 2002 (10/17/2002)
2003-P-0073 Lac du Flambeau Band of Lake Superior Chippewa Indians, Fiscal Year Ended September
            30, 2003 (10/17/2002)
2003-P-0074 Enterprise Rancheria of Maidu Indians of California, Fiscal Year Ended December 31, 2002
            (10/21/2002)
2003-P-0075 Confederated Tribes of Coos, Lower Umpqua and Siuslaw Indians, Fiscal Year Ended
            December 31, 2002 (10/21/2002)
2003-P-0076 Praire Band of Potawatomi Indians, Fiscal Year Ended December 31, 1999 (10/21/2002)
            *$194,791
2003-P-0077 Praire Band of Potawatomi Indians, Fiscal Year Ended December 31, 2000 (10/21/2002)
            *$507,658
2003-P-0078 Ute Indian Tribe, Fiscal Year Ended September 30, 1998 (10/23/2002)
2003-P-0079 Ute Indian Tribe, Fiscal Year Ended September 30, 1999 (10/23/2002)

               Semiannual Report to the Congress: October 1, 2002 - March 31, 2003
                                                36
Appendix 2 (continued)

2003-P-0080   Ute Indian Tribe, Fiscal Year Ended September 30, 2000 (10/23/2002)
2003-P-0081   Ute Indian Tribe, Fiscal Year Ended September 30, 2001 (10/23/2002)
2003-P-0082   Ute Indian Tribe, Fiscal Year Ended September 30, 2002 (10/23/2002) *$121,537
2003-P-0083   Lac Courte Oreilles Tribal Governing Board, Fiscal Year Ended September 30, 2001
              (10/23/2002)
2003-P-0085   Yavapai-Prescott Indian Tribe, Fiscal Year Ended December 31, 2002 (10/23/2002)
2003-P-0086   Spirit Lake Tribe, Fiscal Year Ended September 30, 2003 (10/23/2002) *$25,852
2003-P-0087   Havasupai Tribal Council, Fiscal Year Ended September 30, 1999 (10/23/2002) *$25,551
2003-P-0088   Havasupai Tribal Council, Fiscal Year Ended September 30, 2001 (10/23/2002)
2003-P-0089   Pueblo of Pojoaque, Fiscal Year Ended September 30, 2002 (10/24/2002) *$3,968
2003-P-0090   Pueblo of Pojoaque, Fiscal Year Ended September 30, 2003 (10/24/2002)
2003-P-0091   Lac Courte Oreilles Tribal Governing Board, Fiscal Year Ended September 30, 2002
              (10/24/2002)
2003-P-0095   Sault Ste. Marie Tribe of Chippewa Indians, Fiscal Year Ended December 31, 2002
              (10/28/2002)
2003-P-0096   Mashantucket Pequot Tribal Nation, Fiscal Year Ended September 30, 2001 (10/28/2002)
2003-P-0097   Mashantucket Pequot Tribal Nation, Fiscal Year Ended September 30, 2003 (10/28/2002)
2003-P-0098   Puyallup Tribe of Indians, Fiscal Year Ended September 30, 2003 (10/29/2002)
2003-P-0099   Metlakatla Indian Community, Fiscal Year Ended September 30, 2003 (10/29/2002) *$15,803
2003-P-0100   Native Village of Point Hope, Fiscal Year Ended December 31, 2003 (10/29/2002)
2003-P-0101   Chickaloon Village Traditional Council, Fiscal Year Ended September 30, 2002 (11/04/2002)
              *$8,658
2003-P-0102   Chickaloon Village Traditional Council, Fiscal Year Ended September 30, 2003 (11/04/2002)
2003-P-0103   Shingle Springs Band of Miwok Indians, Fiscal Year Ended December 31, 2003 (11/04/2002)
2003-P-0104   Pyramid Lake Paiute Tribe, Fiscal Year Ended December 31, 1998 (11/05/2002) *$21,403
2003-P-0105   Pyramid Lake Paiute Tribe, Fiscal Year Ended December 31, 1999 (11/05/2002) *$156,027
2003-P-0106   Chemehuevi Indian Tribe, Fiscal Year Ended December 31, 2002 (11/05/2002) *$18,090
2003-P-0107   Osage Tribal Council, Fiscal Year Ended September 30, 2002 (11/05/2002)
2003-P-0108   Snoqualmie Tribe, Fiscal Year Ended September 30, 2002 (11/05/2002)
2003-P-0109   Snoqualmie Tribe, Fiscal Year Ended September 30, 2003 (11/05/2002)
2003-P-0110   Stone Child College, Fiscal Year Ended September 30, 2002 (11/05/2002)
2003-P-0111   Lower Elwha Klallam Tribe, Fiscal Year Ended September 30, 2003 (11/05/2002)
2003-P-0112   Ponca Tribe of Nebraska, Fiscal Year Ended September 30, 2003 (11/05/2002) *$80,519
2003-P-0113   Round Valley Indian Health Center, Inc., Fiscal Year Ended June 30, 2002 (11/05/2002)
2003-P-0117   Chitimacha Tribe of Louisiana, Fiscal Year Ended September 30, 2003 (11/12/2002)
2003-P-0118   Kickapoo Tribe in Kansas, Fiscal Year Ended December 31, 1993 (11/14/2002)
2003-P-0119   Kickapoo Tribe in Kansas, Fiscal Year Ended December 31, 1994 (11/14/2002)
2003-P-0120   Kickapoo Tribe in Kansas, Fiscal Year Ended December 31, 1995 (11/14/2002)
2003-P-0121   Kickapoo Tribe in Kansas, Fiscal Year Ended December 31, 1996 (11/14/2002)
2003-P-0122   Kickapoo Tribe in Kansas, Fiscal Year Ended December 31, 1997 (11/14/2002)
2003-P-0123   Kickapoo Tribe in Kansas, Fiscal Year Ended December 31, 1998 (11/14/2002)
2003-P-0124   Quileute Tribal Council, Fiscal Year Ended September 30, 2001 (11/14/2002)
2003-P-0125   Quileute Tribal Council, Fiscal Year Ended September 30, 2002 (11/14/2002)
2003-P-0130   Crow Tribe of Indians, Fiscal Year Ended September 30, 1998 (11/14/2002) *$234,888
2003-P-0131   Crow Creek Sioux Tribe, Fiscal Year Ended September 30 1999 (11/14/2002) *$59,087
2003-P-0132   Kialegee Tribal Town, Fiscal Year Ended September 30, 2002 (11/14/2002) *$336
2003-P-0133   Saint Regis Mohawk Tribe, Fiscal Year Ended December 31, 2003 (11/14/2002)

              Semiannual Report to the Congress: October 1, 2002 - March 31, 2003
                                                 37
                                                                           Appendix 2 (continued)

2003-P-0134 Southern Ute Community Action Programs, Fiscal Year Ended December 31, 2003
            (11/14/2002)
2003-P-0135 Cook Inlet Tribal Council, Incorporated, Fiscal Year Ended September 30, 2003 (11/20/2002)
            *$10,786
2003-P-0136 Grand Portage Reservation, Fiscal Year Ended September 30, 2003 (11/20/2002) *$27,576
2003-P-0137 Wyandotte Nation of Oklahoma, Fiscal Year Ended September 30, 2003 (11/20/2002)
2003-P-0138 Native Village of Kwinhagak, Fiscal Year Ended June 30, 2001 (11/20/2002)
2003-P-0139 Native Village of Kwinhagak, Fiscal Year Ended June 30, 2003 (11/20/2002) *$56,337
2003-P-0140 Grand Traverse Band of Ottawa and Chippewa Indians, Fiscal Year Ended September 30,
            2003 (11/20/2002) *$17,523
2003-P-0141 North Fork Mono Rancheria, Fiscal Year Ended September 30, 1999 (11/20/2002)
2003-P-0142 North Fork Mono Rancheria, Fiscal Year Ended September 30, 2000 (11/22/2002) *$91,287
2003-P-0143 North Fork Mono Rancheria, Fiscal Year Ended September 30, 2001 (11/20/2002) *$53,388
2003-P-0145 San Pasqual Band of Diegueno Mission Indians of California, Fiscal Year Ended December
            31, 2002 (11/20/2002)
2003-P-0146 Agdaagux Tribe of King Cove, Fiscal Year Ended September 30, 2002 (11/22/2002)
2003-P-0147 Wampanoag Tribe of Gay Head (Aquinnah), Fiscal Year Ended September 30, 2002
            (11/22/2002) *$59,555
2003-P-0148 Sitka Tribe of Alaska, Fiscal Year Ended December 31, 2002 (11/26/2002)
2003-P-0149 Muscogee (Creek) Nation, Fiscal Year Ended September 30, 2002 (11/26/2002)
2003-P-0150 Salt River Pima-Maricopa Indian Community, Fiscal Year Ended September 30, 2001
            (11/26/2002)
2003-P-0151 Torres-Martinez Band of Cahuilla Mission Indians, Fiscal Year Ended September 30, 2003
            (12/03/2002)
2003-P-0152 Alabama-Coushatta Tribe of Texas, Fiscal Year Ended December 31, 2001 (12/03/2002)
            *$7,205
2003-P-0153 Paiute-Shoshone Indians of the Lone Pine Community, Fiscal Year Ended December 31, 2000
            (12/03/2002)
2003-P-0154 Paiute-Shoshone Indians of the Lone Pine Community, Fiscal Year Ended December 31, 2001
            (12/03/2002)
2003-P-0155 Paiute-Shoshone Indians of the Lone Pine Community, Fiscal Year Ended December 31, 2002
            (12/03/2002)
2003-P-0156 Hoopa Valley Tribe, Fiscal Year Ended September 30, 1998 (12/03/2002) *$201,814
2003-P-0157 Yankton Sioux Tribe, Fiscal Year Ended December 31, 1999 (12/03/2002)
2003-P-0158 Yankton Sioux Tribe, Fiscal Year Ended December 31, 2000 (12/03/2002)
2003-P-0159 Yankton Sioux Tribe, Fiscal Year Ended December 31, 2001 (12/03/2002)
2003-P-0160 Yankton Sioux Tribe, Fiscal Year Ended December 31, 2002 (12/03/2002)
2003-P-0161 1854 Authority, Fiscal Year Ended December 31, 2001 (12/03/2002)
2003-P-0163 Mooretown Rancheria of Maidu Indians, Fiscal Year Ended December 31, 2003
            (12/04/2002)
2003-P-0164 Ouzinkie Tribal Council, Fiscal Year Ended September 30, 2003 (12/04/2002)
2003-P-0165 Native Village of Selawik, Fiscal Year Ended December 31, 2001 (12/09/2002)
2003-P-0166 Native Village of Selawik, Fiscal Year Ended December 31, 2002 (12/09/2002)
2003-P-0167 Sac and Fox Nation of Oklahoma, Fiscal Year Ended September 30, 2001 (12/09/2002)
2003-P-0168 Hoonah Indian Association, Fiscal Year Ended December 31, 2002 (12/09/2002) *$15,853
2003-P-0169 Hoonah Indian Association, Fiscal Year Ended December 31, 2003 (12/09/2002) *$15,853
2003-P-0170 Bridgeport Indian Colony, Fiscal Year Ended December 31, 2002 (12/09/2002) *$64,131

               Semiannual Report to the Congress: October 1, 2002 - March 31, 2003
                                                 38
Appendix 2 (continued)

2003-P-0172 Delaware Nation, Fiscal Year Ended September 30, 2003 (12/10/2002) *$4,026
2003-P-0176 Upper Lake Band of Pomo Indians, Fiscal Year Ended December 31, 2003 (12/16/2002)
2003-P-0177 Shoshone-Paiute Tribes of the Duck Valley Indian Reservation, Fiscal Year Ended September
            30, 2003 (12/19/2002) *$3,947
2003-P-0178 White Mountain Apache Tribe, Fiscal Year Ended April 30, 2000 (12/19/2002) *$37,910
2003-P-0179 White Mountain Apache Tribe, Fiscal Year Ended April 30, 2001 (12/19/2002)
2003-P-0180 White Mountain Apache Tribe, Fiscal Year Ended April 30, 2002 (12/19/2002)
2003-P-0181 Turtle Mountan Band of Chippewa Indians, Fiscal Year Ended September 30, 2003
            (12/19/2002)
2003-P-0182 Ninilchik Traditional Council for Fiscal Year Ended September 30, 2001 (12/24/2002)
2003-P-0184 Assiniboine and Sioux Tribes, Fiscal Year Ended September 30, 2002 (12/24/2002)
            *$179,669
2003-P-0185 Assiniboine and Sioux Tribes, Fiscal Year Ended September 30, 2003 (12/24/2002)

Commonwealth of the Northern Mariana Islands

2003-P-0011 Commonwealth of the Northern Mariana Islands, Fiscal Year Ended September 30, 2003
            (10/02/2002)

Guam

2003-P-0173 University of Guam, Fiscal Year Ended September 30, 2003 (12/10/2002)

Multi-Office

2003-P-0022 Alaska Department of Fish and Game, Fiscal Year Ended June 30, 2003 (10/03/2002)
2003-P-0066 Cottonwood Creek Watershed Group, Fiscal Year Ended December 31, 2002 (10/16/2002)
2003-P-0094 Alaska Department of Natural Resources, Fiscal Year Ended June 30, 2003 (10/28/2002)
2003-P-0115 Anderson-Cottonwood Irrigation District, Fiscal Year Ended December 31, 2001
            (11/07/2002)
2003-P-0116 Anderson-Cottonwood Irrigation District, Fiscal Year Ended December 31, 2003
            (11/07/2002)
2003-P-0171 Calista Elders Council, Incorporated, Fiscal Year Ended December 31, 2002 (12/10/2002)
2003-P-0183 Montana Department of Natural Resources and Conservation, Fiscal Year Ended June 30,
            2003 (12/24/2002)

National Park Service

2003-P-0009    Massachusetts Historical Commission, Fiscal Year Ended June 30, 2003 (10/02/2002)
2003-P-0010    Wisconsin Historical Society, Fiscal Year Ended June 30, 2003 (10/02/2002)
2003-P-0038    Colorado Historical Society, Fiscal Year Ended June 30, 2003 (10/08/2002)
2003-P-0039    Colorado Historical Society, Fiscal Year Ended June 30, 2004 (10/08/2002)
2003-P-0040    Colorado Historical Society, Fiscal Year Ended June 30, 2005 (10/08/2002)
2003-P-0070    Missouri Department of Natural Resources, Fiscal Year Ended June 30, 2003 (10/17/2002)
2003-P-0092    Connecticut Historical Commission, Fiscal Year Ended June 30, 2002 (10/25/2002)
2003-P-0093    Connecticut Historical Commission, Fiscal Year Ended June 30, 2003 (10/25/2002)
2003-P-0126    Mississippi Department of Archives and History, Fiscal Year Ended June 30, 2003
               (11/14/2002)

               Semiannual Report to the Congress: October 1, 2002 - March 31, 2003
                                                  39
                                                                             Appendix 2 (continued)

2003-P-0127 Wyoming Department of State Parks & Cultural Resources, Fiscal Year Ended June 30, 2003
            (11/14/2002)
2003-P-0128 Wyoming Department of State Parks & Cultural Resources, Fiscal Year Ended June 30, 2004
            (11/14/2002)
2003-P-0129 Wyoming Department of State Parks & Cultural Resources, Fiscal Year Ended June 30, 2005
            (11/14/2002)
2003-P-0174 Appalachian Trail Conference, Fiscal Year Ended December 31, 2002 (12/11/2002)
2003-P-0175 Appalachian Trail Conference, Fiscal Year Ended December 31, 2003 (12/11/2002)

U.S. Fish and Wildlife Service

2003-P-0036 Mississippi Department of Wildlife, Fisheries and Parks, Fiscal Year Ended June 30, 2002
            (10/08/2002)
2003-P-0037 Mississippi Department of Wildlife, Fisheries and Parks, Fiscal Year Ended June 30, 2003
            (10/08/2002)
2003-P-0047 Mississippi Department of Environmental Quality, Fiscal Year Ended June 30, 2003
            (10/10/2002)
2003-P-0061 Ohio Department of Natural Resources, Fiscal Year Ended June 30, 2003 (10/16/2002)
2003-P-0144 Kansas Department of Wildlife and Parks, Fiscal Year Ended June 30, 2003 (11/20/2002)
2003-P-0162 Illinois Department of Natural Resources, Fiscal Year Ended June 30, 2003 (12/03/2002)

U.S. Virgin Islands

2003-P-0114 Central Service Cost Allocation Plan, Government of the Virgin Islands, Fiscal Year Ended
            September 30, 2005 (11/05/2002)




                Semiannual Report to the Congress: October 1, 2002 - March 31, 2003
                                                  40
                                            Appendix 3


                           Monetary Impact of Audit Activities From
                           October 1, 2002, Through March 31, 2003



                                                FUNDS TO BE
                                                   PUT TO
                                     QUESTIONED BETTER USE
           ACTIVITY                    COSTS      (* and **) REVENUES                   TOTAL

Bureau of Indian Affairs                $5,565,157           $3,019,783           0     $8,584,940

Bureau of Land Management                     2,458                  0            0          2,458

Bureau of Reclamation                        22,921                  0            0        22,921

Office of Insular Affairs: **

  - U.S. Virgin Islands                  1,379,323           30,129,249     571,000     32,079,572

Office of the Secretary                      12,269                  0            0        12,269
Office of the Special Trustee
                                           108,405                   0            0       108,405
for American Indians
Office of Surface Mining
                                           291,857                   0            0       291,857
Reclamation and Enforcement
U.S. Fish and Wildlife Service           5,287,877                   0      883,718      6,171,595

        TOTAL                         $12,670,267           $33,149,032   $1,454,718   $47,274,017


________________
* Includes monetary impact of indirect cost proposals negotiated.
** Includes monetary impact of nonfederal funds (see Appendix 4).




               Semiannual Report to the Congress: October 1, 2002 - March 31, 2003
                                                      41
                                     Appendix 4

                         Nonfederal Funding Included in
                        Monetary Impact of Audit Activities
                       During the 6-Month Period That Ended
                                  March 31, 2003


No. 2003-I-0002     “Public Finance Authority Government of the Virgin Islands,” dated November
                   2002. All of the $30,524,687 reported as monetary impact represents Insular Area
                   funds.

No. 2003-I-0032    “Grants for the Hurricane Recovery Projects, Government of the Virgin Islands,”
                   dated March 2003. Of the $1,087,120 reported as monetary impact, $74,797
                   represents Insular Area funds.




             Semiannual Report to the Congress: October 1, 2002 - March 31, 2003
                                               42
                                                 Appendix 5
                                       Audit Resolution Activities
                                                Table I


           Inspector General Audit Reports with Questioned Costs*


                                                              Number of        Questioned       Unsupported
                                                               Reports           Costs             Costs

A.   For which no management decision had been
     made by the commencement of the reporting                     68          $39,501,237          $3,061,919
     period.
B.   Which were issued during the reporting
                                                                   42            12,303,267            220,197
     period.1
               Total (A+B)                                        110          $51,804,504          $3,282,116


C.   For which a management decision was made
                                                                   31          $25,684,657          $1,572,464
     during the reporting period.
         (i)   Dollar value of recommendations that
                                                                   27          $24,868,477          $1,572,464
               were agreed to by management.
         (ii) Dollar value of recommendations that
                                                                     4             $816,180                     0
              were not agreed to by management.


D.   For which no management decision had been
                                                                   79          $26,119,847          $1,709,652
     made by the end of reporting period.


E.   For which no management decision was made
                                                                   44          $14,069,693          $1,489,455
     within 6 months of issuance.

_______________
* Unsupported costs are included in questioned costs.


1
 Amount does not agree with Appendix 3 "Monetary Impact of Audit Activities" because we did not include the
monetary amount of Insular Area government recommendations that related to local government funds ($367,000).
This amount is not subject to a Department of the Interior management decision.



                   Semiannual Report to the Congress: October 1, 2002 - March 31, 2003
                                                         43
                                             Appendix 5
                                       Audit Resolution Activities
                                                Table II


                    Inspector General Audit Reports With
               Recommendations That Funds Be Put to Better Use


                                                                         Number of
                                                                                           Dollar Value
                                                                          Reports
A.   For which no management decision had been made by
                                                                               15             $69,653,873
     the commencement of the reporting period.1

B.   Which were issued during the reporting period.2                           46               3,487,548*

              Total (A+B)                                                      61             $73,141,421




C.   For which a management decision was made during the
                                                                               48             $41,320,715*
     reporting period.
        (i)   Dollar value of recommendations that were
                                                                               47             $38,720,715*
              agreed to by management.
        (ii) Dollar value of recommendations that were not
                                                                                1              $2,600,000
             agreed to by management.


D.   For which no management decision had been made by
                                                                               13             $31,820,706
     the end of reporting period.


E.   For which no management decision was made within 6
                                                                               12             $31,352,941
     months of issuance.

_______________
* Amount includes indirect cost proposals negotiated.

1
  Beginning balance differs from October 2002 Semiannual because two recommendations totaling $35,521,234 were
reinstated.

2
 Amount does not agree with Appendix 3 "Monetary Impact of Audit Activities" because we did not include the
monetary amount of Insular Area government recommendations that related to local government funds ($29,661,484).
This amount is not subject to a Department of the Interior management decision.


                Semiannual Report to the Congress: October 1, 2002 - March 31, 2003
                                                        44
                                                Appendix 5

                                         Audit Resolution Activities
                                                  Table III


                             Inspector General Audit Reports with
                             Lost or Potential Additional Revenues


                                                                              Number of
                                                                               Reports         Dollar Value
        A.    For which no management decision had been
              made by the commencement of the reporting                          7              $137,219,449
              period.1
        B.    Which were issued during the reporting period.2                    5                   883,718
              Total (A+B)                                                       12              $138,103,167


        C.    For which a management decision was made
                                                                                 0                     0
              during the reporting period.
                 (i)   Dollar value of recommendations that were
                                                                                 0                     0
                       agreed to by management.
                 (ii) Dollar value of recommendations that were
                                                                                 0                     0
                      not agreed to by management.


        D.    For which no management decision had been
                                                                                12              $138,103,167
              made by the end of reporting period.


        E.
        For which no management decision was made
                                                                                 7              $137,219,449
        within 6 months of issuance.
________________
1
    Beginning balance differs from October 2002 Semiannual because three reports totaling $85,847,684 were reinstated.
2
  Amount does not agree with Appendix 3 "Monetary Impact of Audit Activities" because we did include the monetary
amount of Insular Area government recommendations that related to local government funds ($571,000). This amount
is not subject to a Department of the Interior management decision.




                   Semiannual Report to the Congress: October 1, 2002 - March 31, 2003
                                                          45
                                          Appendix 6

                       Summary of Audit Reports Over 6 Months Old
                           Pending Management Decisions


         This listing includes a summary of internal, contract (except pre-awards), grant, and single audit
reports that were over 6 months old on March 31, 2003, and still pending a management decision. It
provides report number, title, issue date, number of unresolved recommendations, and unresolved amount of
monetary benefits identified in the audit report.

Internal Audits

Office of Insular Affairs

Guam

2001-I-0417    Loan Programs, Guam Economic Development Authority, Government of Guam
               (09/21/2001) 3 Recommendations and $7,995,752 Unresolved

Multi-Office

2001-I-0297    Audit Report on the Stripper Oil Well Property Royalty Rate Reduction Program
               (03/30/2001) 2 Recommendations Unresolved

Republic of the Marshall Islands

1999-I-0952    Marshall Islands Development Bank, Republic of the Marshall Islands
               (09/30/1999) 4 Recommendations and $382,888 Unresolved

Contract and Grant Audits

Bureau of Indian Affairs

1994-E-0784 Costs Claimed By Diversified Business Technologies Corporation Under Contract No.
            CBM000047 (06/10/1994) $825,170 Unresolved (Circumstances beyond the Bureau’s
            control have delayed resolution of the costs)
1994-E-0919 Costs Claimed By Diversified Technologies Corporation Under Contract No. CBM000147
            (06/30/1994) $247,414 Unresolved (Circumstances beyond the Bureau’s control have
            delayed resolution of the costs)

Bureau of Reclamation

2000-E-0688 Interstate Electrical Contractor, Claims for Equitable Adjustment Submitted to Bureau of
            Reclamation Under Contract No. 1425-5-CC-40-17910 (09/18/2000) $982,917 Unresolved
2001-E-0184 Mingus Constructors, Incorporated, Claim for Equitable Adjustment Submitted to Bureau of
            Reclamation Under Contract No. 1425-5-CC-40-17910 (02/14/2001) $725,790 Unresolved


                Semiannual Report to the Congress: October 1, 2002 - March 31, 2003
                                                    46
Appendix 6 (continued)


2001-E-0229 Sloat and Associates, Incorporated, Costs Claimed Under Bureau of Reclamation Contract
            No. 1425-5-CC-40-18140 (02/14/2001) $157,964 Unresolved
2002-E-0008 Tooele City, Utah, Costs Billed Under Bureau of Reclamation Cooperative Agreement No.
            96FC400870 for the Toole Wastewater Treatment and Reuse Project (09/20/2002) $461,981
            Unresolved

National Park Service

2000-E-0289 JCM Control Systems, Incorporated, Costs Billed Under National Park Service Contract No.
            1443CX300094906 from January 1, 1997, through July 16, 1999 (03/24/2000) $83,125
            Unresolved
2000-E-0607 Harrison and Palmer, Incorporated, Costs Billed Under National Park Service Contract No.
            1443CX300094906 from April 1, 1996, through June 23, 1999 (08/08/2000) $52,703
            Unresolved
2000-E-0706 Southern Insulation, Incorporated, Costs Billed Under National Park Service Contract No.
            1443CX300094906 from November 1, 1996, through June 1, 1999 (09/29/2000) $86,262
            Unresolved
2001-E-0035 Callas Contractors, Incorporated, Costs Billed Under National Park Service Contract No.
            1443CX300094906 from January 1, 1997, through June 1, 1997 (11/07/2000) $16,425
            Unresolved
2001-E-0036 Capitol Mechanical Construction, Costs Billed Under National Park Service Contract No.
            1443CX300094906 from January 1, 1997, through June 1, 1999 (11/07/2000) $98,194
            Unresolved
2001-E-0244 E.M.S. Consultants, Incorporated, Costs Billed Under National Park Service Contract No.
            1443CX300094906 from May 1, 1996, through June 1, 1999 (02/27/2001) $327,330
            Unresolved
2001-E-0336 JCM Control Systems, Incorporated, Costs Billed Under National Park Service Contract No.
            1444CX300094906 from January 1, 1994, through July 16, 1999 (04/23/2001) $109,865
            Unresolved
2002-E-0002 Community Central Energy Corporation, Amounts Billed Under National Park Service
            Contract No. CX-4000-0-0023 from October 1, 1993, through September 30, 2000
            (12/19/2001) $779,274 Unresolved

Office of the Special Trustee for American Indians

2002-E-0001 Los Alamos Technical Associates, Incorporated, Termination Settlement Proposal Under
            Office of the Special Trustee Contract No. NBCA0C00009 (01/17/2002) $30,031
            Unresolved
2002-E-0003 Ktech Corporation, Termination Settlement Proposal Under Office of the Special Trustee
            Contract No. NBCA0C00009 (01/17/2002) $28,381 Unresolved

U.S. Fish and Wildlife Service

1998-E-0198 U.S. Fish and Wildlife Service Federal Grants to the State of Colorado for Fiscal Years 1994
            and 1995 (01/16/1998) $1,457,264 Unresolved



                Semiannual Report to the Congress: October 1, 2002 - March 31, 2003
                                                   47
                                                                            Appendix 6 (continued)


2002-E-0006 State of New Mexico, Department of Game and Fish, Costs Claimed Under Federal Aid
            Grants from the U.S. Fish and Wildlife Service from July 1, 1996, through June 30, 1998
            (08/01/2002) $27,850 Unresolved
2002-E-0007 State of South Carolina, Department of Natural Resources, and the Marine Resources
            Division, Costs Claimed Under Federal Aid Grants from the U.S. Fish and Wildlife Service
            (08/06/2002) $56,280 Unresolved
2002-E-0009 Commonwealth of Virginia, Department of Game and Inland Fisheries, Costs Claimed Under
            Federal Aid Grants from the U.S. Fish and Wildlife Service from July 1, 1997, through June
            30, 1999 (09/04/2002) 2 Recommendations Unresolved
2002-E-0010 State of Delaware, Department of Natural Resources and Environmental Control, Costs
            Claimed Under Federal Aid Grants from the U.S. Fish and Wildlife Service from July 1, 1998,
            through June 30, 2000 (09/04/2002) 1 Recommendation Unresolved
2002-E-0012 State of Oklahoma, Department of Wildlife Conservation, Costs Claimed Under Federal Aid
            Grants from the U.S. Fish and Wildlife Service from July 1, 1996, through June 30, 1998
            (09/09/2002) $2,454,763 Unresolved

U.S. Geological Survey

1993-E-0339 TGS Technology, Incorporated, Closing Statement (12/22/1992) $786,501 Unresolved


Minerals Management Service

2001-E-0355 Ute Indian Tribe, Costs Billed Under Minerals Management Service Cooperative Agreement
            No. 15-35-0002-40270 from October 1, 1994, through September 30, 2000 (05/04/2001)
            $132,217 Unresolved

Single Audits
Bureau of Indian Affairs

2001-A-0509 Picayune Rancheria of the Chukchansi Indian Tribe, Fiscal Year Ended December 31, 1998
            (09/19/2001) 8 Recommendations Unresolved
2001-A-0520 Round Valley Indian Tribe, Fiscal Year Ended December 31, 1999 (09/24/2001
             3 Recommendations and $32,246 Unresolved
2002-A-0045 Rincon San Luiseno Band of Mission Indians, Fiscal Year Ended December 31, 1999
            (10/30/2001) 3 Recommendations Unresolved
2002-A-0169 Sherwood Valley Rancheria, Fiscal Year Ended December 31, 1999
            (02/05/2002) 4 Recommendations Unresolved
2002-A-0227 Shonto Governing Board of Education, Incorporated, Fiscal Year Ended June 30, 2000
            (03/21/2002) 5 Recommendations Unresolved
2002-A-0285 Big Valley Rancheria Band of Pomo Indians, Fiscal Year Ended December 31, 2000
            (05/17/2002) 4 Recommendations Unresolved
2002-A-0290 Akiak Native Community, Fiscal Year Ended December 31, 1997 (05/21/2002)
            3 Recommendations and $1,324 Unresolved
2002-A-0291 Akiak Native Community, Fiscal Year Ended December 31, 1998 (05/21/2002
            3 Recommendations and $1,256 Unresolved

               Semiannual Report to the Congress: October 1, 2002 - March 31, 2003
                                                  48
Appendix 6 (continued)


2002-A-0311 Chalkyitsik Village Council, Fiscal Year Ended September 30, 2000 (06/06/2002)
            3 Recommendations Unresolved
2002-A-0314 Standing Rock Sioux Tribe, Fiscal Year Ended September 30, 2000 (07/01/2002)
            1 Recommendation Unresolved
2002-A-0345 Tuluksak Native Community, Fiscal Year Ended December 31, 2000
            (07/11/2002) 1 Recommendation and $8,733 Unresolved
2002-A-0348 Scotts Valley Band of Pomo Indians, Fiscal Year Ended December 31, 2000 (07/11/2002)
            1 Recommendation Unresolved
2002-A-0355 Washoe Tribe of Nevada and California, Fiscal Year Ended December 31, 2000
            (07/18/2002) 15 Recommendations and $17,300 Unresolved
2002-A-0377 Iowa Tribe of Oklahoma, Fiscal Year Ended December 31, 2000 (08/01/2002)
            1 Recommendation Unresolved
2002-A-0387 Cocopah Indian Tribe, Fiscal Year Ended December 31, 1999 (08/05/2002)
            1 Recommendation Unresolved
2002-A-0394 Kickapoo Tribe of Oklahoma, Fiscal Year Ended September 30, 1998 (08/12/2002)
            1 Recommendation and $131,465 Unresolved
2002-A-0396 Three Affiliated Tribes, Fiscal Year Ended September 30, 1998 (08/12/2002)
            2 Recommendations and $57,108 Unresolved
2002-A-0401 Kayenta Community School, Fiscal Year Ended June 30, 2001 (08/16/2002)
            4 Recommendations Unresolved
2002-A-0409 Stevens Village Council, Fiscal Year Ended September 30, 1998 (08/16/2002)
            8 Recommendations Unresolved
2002-A-0411 Pueblo of Laguna Department of Education, Fiscal Year Ended June 30, 2001 (08/26/2002)
            1 Recommendation Unresolved
2002-A-0414 Alamo Navajo School Board, Incorporated, Fiscal Year Ended June 30, 2001 (08/26/2002)
            1 Recommendation Unresolved
2002-A-0425 Naa Tsis Aan Community School, Fiscal Year Ended June 30, 2001 (09/09/2002)
            1 Recommendation Unresolved
2002-A-0430 Cortina Indian Rancheria, Fiscal Year Ended December 31, 1999 (09/11/2002)
            2 Recommendations Unresolved
2002-A-0433 Winslow Residential Hall, Incorporated, Fiscal Year Ended June 30, 2001 (09/11/2002)
            5 Recommendations Unresolved
2002-A-0436 Northern Cheyenne Tribal School, Fiscal Year Ended June 30, 2001 (09/16/2002)
            1 Recommendation Unresolved
2002-A-0438 Emmonak Tribal Council, Fiscal Year Ended December 31, 1999 (09/16/2002)
            1 Recommendation and $22,629 Unresolved
2002-A-0446 Standing Rock Community Grant School, Fiscal Year Ended June 30, 2000 (09/18/2002)
            2 Recommendations and $584 Unresolved
2002-A-0449 Indian Township Tribal Government, Fiscal Year Ended September 30, 2000 (09/18/2002)
            4 Recommendations Unresolved
2002-A-0456 Little Singer Community School Board, Incorporated and Little Singer Junior High School,
            Fiscal Year Ended June 30, 2001 (09/20/2002) 2 Recommendations Unresolved
2002-A-0457 Three Affiliated Tribes, Fiscal Year Ended September 30, 1999 (09/20/2002)
             9 Recommendations Unresolved
2002-A-0463 South Fork Band Council, Fiscal Year Ended September 30, 2000 (09/25/2002)
            4 Recommendations Unresolved


               Semiannual Report to the Congress: October 1, 2002 - March 31, 2003
                                                 49
                                                                               Appendix 6 (continued)


2002-A-0465 Loneman Day School, Fiscal Year Ended June 30, 2001 (09/25/2002)
            4 Recommendations Unresolved
2002-A-0468 Ponca Tribe of Nebraska, Fiscal Year Ended September 30, 2001 (09/27/2002)
            1 Recommendation Unresolved
2002-A-0477 San Juan Pueblo Board of Education, Fiscal Year Ended June 30, 2001 (09/30/2002)
            3 Recommendations Unresolved
2002-A-0480 Chilchinbeto Community School, Fiscal Year Ended June 30, 2001 (9/30/2002)
            4 Recommendations Unresolved

National Park Service

1998-A-0194 Georgia Trust for Historic Preservation, Incorporated, Fiscal Year Ended March 31, 1997
            (12/24/1997) 1 Recommendation Unresolved
1998-A-0229 National Institute for the Conservation of Cultural Property, Incorporated, Fiscal Year Ended
            December 31, 1996 (01/15/1998) 1 Recommendation Unresolved
1998-A-0627 South Carolina Department of Parks, Recreation and Tourism, Fiscal Year Ended June 30,
            1996 (08/06/1998) 1 Recommendation Unresolved
1998-A-0687 National Conference of State Historic Preservation Officers, Fiscal Year Ended December
            31, 1997 (09/25/1998) 1 Recommendation Unresolved
2000-A-0158 Georgia Trust for Historic Preservation, Incorporated, Fiscal Year Ended March 31, 1998
            (12/17/1999) 1 Recommendation Unresolved
2000-A-0160 Ste. Genevieve, Missouri, Fiscal Year Ended September 30, 1998 (12/17/1999)
            1 Recommendation Unresolved
2000-A-0186 Allegheny Ridge Corporation, Fiscal Year Ended June 30, 1997
            (01/13/2000) 1 Recommendation Unresolved
2001-A-0089 Georgia Trust for Historic Preservation, Incorporated, Fiscal Year Ended March 31, 1999
            (12/14/2000) 1 Recommendation Unresolved
2002-A-0028 Georgia Trust for Historic Preservation, Incorporated, Fiscal Year Ended March 31, 2000
            (10/25/2001) 1 Recommendation Unresolved
2002-A-0060 Appalachian Trail Conference, Fiscal Year Ended December 31, 1999 (11/16/2001)
            1 Recommendation Unresolved
2002-A-0412 Georgia Trust for Historic Preservation, Incorporated, Fiscal Year Ended March 31, 2001
             (08/26/2002) 1 Recommendation Unresolved

Office of Insular Affairs

2000-A-0062 Hawaii, Fiscal Year Ended June 30, 1998 (11/04/1999) 1 Recommendation and $32,167
            Unresolved

Office of Surface Mining Reclamation and Enforcement

2002-A-0472 West Virginia, Fiscal Year Ended June 30, 2001 (09/30/2002) 1 Recommendation
            Unresolved




                Semiannual Report to the Congress: October 1, 2002 - March 31, 2003
                                                    50
Appendix 6 (continued)


Office of the Secretary

2000-A-0099 Pennsylvania State University, Fiscal Year Ended June 30, 1998 (11/19/1999)
            1 Recommendation and $2,303 Unresolved

U.S. Fish and Wildlife Service

1997-A-0993 Virginia, Fiscal Year Ended June 30, 1995 (08/08/1997) 1 Recommendation Unresolved
1997-A-1180 Wisconsin, Fiscal Year Ended June 30, 1995 (09/05/1997) 1 Recommendation and $26,410
            Unresolved
1997-A-1241 South Carolina, Fiscal Year Ended June 30, 1996 (09/17/1997) 1 Recommendation
            Unresolved
1998-A-0149 Arizona, Fiscal Year Ended June 30, 1996 (12/02/1997) 1 Recommendation Unresolved
2001-A-0202 California, Fiscal Year Ended June 30, 1999 (01/29/2001) 1 Recommendation Unresolved
2002-A-0241 American Sportfishing Association and Affiliates, Fiscal Year Ended September 30, 2000
            (04/05/2002) 3 Recommendations Unresolved
2002-A-0329 North Carolina, Fiscal Year Ended June 30, 2001 (06/28/2002) 1 Recommendation
            Unresolved
2002-A-0402 New Hampshire, Fiscal Year Ended June 30, 2001 (08/16/2002) 2 Recommendations and
            $13,147 Unresolved
2002-A-0481 Montana, Fiscal Year Ended June 30, 2001 (09/30/2002) 1 Recommendation and $709,642
            Unresolved (Finding pertains to the Office of Surface Mining Reclamation and
            Enforcement)




               Semiannual Report to the Congress: October 1, 2002 - March 31, 2003
                                                 51
                                           Appendix 7

                 Summary of Internal Audit Reports Over 6 Months
                        Old Pending Corrective Action

        This is a listing of internal audit reports with management decisions over 6 months old for which
corrective action has not been completed. It provides report number, title, issue date, and the number of
recommendations without final corrective action. These reports continue to be monitored by the Focus
Leader for Management Control and Audit Follow-up, Assistant Secretary, Policy, Management and
Budget, for completion of corrective action. (Note: The Insular Area reports listed pertain to corrective
actions that pertain to programs funded by the Department of the Interior)


Bureau of Indian Affairs

1995-I-1402     Wapato Irrigation Projects (09/30/1995) 1 Recommendation
1996-I-0641     Indian Irrigation Projects (03/29/1996) 13 Recommendations
2002-I-0020     Independent Auditors’ Report on the Bureau of Indian Affairs’ Financial Statements for
                Fiscal Years 2001 and 2000 (03/15/2002) 7 Recommendations

Bureau of Land Management

1992-I-0828     Onshore Geophysical Exploration Program (05/26/1992) 2 Recommendations
1995-I-0379     Follow-up of Recommendations Relating to the Bureau of Land Management User Charges
                for Mineral-Related Document Processing (01/23/1995) 2 Recommendations
1995-I-0747     Right-Of-Way Grants (03/31/1995) 5 Recommendations
1996-I-1267     Inspection and Enforcement Program and Selected Related Activities (09/20/1996)
                1 Recommendation
1997-I-1300     Issuance of Mineral Patents, Bureau of Land Management and Office of the Solicitor
                (09/30/1997) 1 Recommendation
1998-I-0551     Reimbursement of Firefighting Costs (07/27/1998) 2 Recommendations
1999-I-0677     Rangelands Improvement Program (07/28/1999) 1 Recommendation
1999-I-0808     Cultural Resource Management (09/03/1999) 2 Recommendations
2001-I-0413     Land Exchange and Acquisition, Bureau of Land Management Utah State Office
                (07/31/2001) 1 Recommendation
2002-I-0047     GPRA Goal, Reduce Threats to Public Health, Safety and Property
                (09/25/2002) 6 Recommendations




                Semiannual Report to the Congress: October 1, 2002 - March 31, 2003
                                                     52
Appendix 7 (continued)


Bureau of Reclamation

1999-I-0588    Lower Brule Sioux Rural Water System, Mni Wiconi Rural Water Supply Project
               (06/24/1999) 1 Recommendation
1999-I-0627    Oglala Sioux Rural Water Supply System, Mni Wiconi Rural Water Supply Project
               (06/29/1999) 1 Recommendation
2000-I-0376    Concessions Managed by the Bureau of Reclamation (05/08/2000) 1 Recommendation
2002-I-0004    Improvements Needed in Security Management of Information Technology Systems
               Supporting Energy and Water Operations (10/26/2001) 1 Recommendation
2002-I-0052    Review of Central Valley Project Responsibilities Transferred Under Direct Funding
               Agreements between the Bureau of Reclamation and Three California Water Authorities
               (09/30/2002) 2 Recommendations

Minerals Management Service

1996-I-1255    Selected Activities of the Royalty Management System (09/30/1996) 2 Recommendations
2001-I-0418    Independent Auditors’ Report on the Minerals Management Service’s Financial Statement for
               Fiscal Year 2000 (09/04/2001) 1 Recommendation
2002-I-0023    Independent Auditors’ Report on the Minerals Management Service’s Financial Statements
               for Fiscal Years 2001 and 2000 (03/15/2002) 3 Recommendations

Multi-Office

2000-I-0300    Supporting Documentation for Operators Participating in the Stripper Oil Well Property
               Royalty Rate Reduction Program (03/27/2000) 2 Recommendations
2001-I-0421    Audit of Bonding for Oil and Gas Wells on Indian Trust Lands (09/24/2001)
               2 Recommendations
2002-I-0011    Department of the Interior Integrated Credit Card Program (12/20/2001)
               3 Recommendations
2002-I-0018    U.S. Department of the Interior’s Fiscal Year 2001 Annual Departmental Report on
               Accountability (02/27/2002) 50 Recommendations

National Park Service

1997-I-0908    Automated Law Enforcement System (06/23/1997) 1 Recommendation
1998-I-0406    Follow-up of Recommendations Concerning Utility Rates Imposed by the National Park
               Service (04/15/1998) 5 Recommendations
2001-I-0116    Collection and Use of Concession Fees (01/11/2001) 1 Recommendation
2002-I-0045    Recreational Fee Demonstration Program, National Park Service and Bureau of Land
               Management (8/29/2002) 5 Recommendations




               Semiannual Report to the Congress: October 1, 2002 - March 31, 2003
                                                    53
                                                                              Appendix 7 (continued)


Office of the Secretary

1999-I-0381   Additional Controls Needed Over Data Processing Environment at U.S. Geological Survey
              Reston Enterprise Data Services Center (03/24/1999) 1 Recommendation
2001-I-0407   Independent Auditors’ Report on Departmental Offices’ Financial Statements for Fiscal Year
              2000 (05/31/2001) 7 Recommendations
2002-I-0029   Independent Auditors’ Report on Departmental Offices’ Financial Statements for Fiscal Year
              2001 (04/10/2002) 7 Recommendations
2002-I-0030   Independent Auditors’ Report on the Interior Franchise Fund’s Financial Statements for Fiscal
              Years 2001 and 2000 (04/10/2002) 11 Recommendations

Office of Special Trustee for American Indians

1997-I-1167   Judgment Funds Awarded to the Turtle Mountain Band of Chippewa Indians (09/22/1997)
              1 Recommendation
1997-I-1168   Judgment Funds Awarded to the Navajo Nation (09/22/1997) 1 Recommendation
1997-I-1169   Judgment Funds Awarded to the Papago Tribe of Arizona (09/15/1997) 2 Recommendations
1998-I-0703   Agricultural Leasing and Grazing Activities, Fort Peck Agency (09/30/1998)
              2 Recommendations
2001-I-0411   Independent Auditors’ Report on the Financial Statements for Fiscal Years 2000 and 1999 for
              the Office of Special Trustee for American Indians Tribal and other Special Trust Funds and
              Individual Indian Monies Trust Funds Managed by the Office of Trust Funds Management
              (06/24/2001) 21 Recommendations
2002-I-0027   Independent Auditors’ Report on the Financial Statements for Fiscal Years 2001 and 2000 for
              the Office of Special Trustee for American Indians Tribal and other Special Trust Funds and
              Individual Indian Monies Trust Funds Managed by the Office of Trust Funds Management
              (04/25/2002) 3 Recommendations

Republic of the Marshall Islands

1999-I-0952   Marshall Islands Development Bank, Republic of the Marshall Islands
              (09/30/1999) 3 Recommendations


U.S. Fish and Wildlife Service

1995-I-0376   Concession Fees (01/17/1995) 1 Recommendation
1997-I-1302   Partners for Wildlife Habitat Restoration Program (09/29/1997) 3 Recommendations
1997-I-1305   Automated Law Enforcement System (09/30/1997) 2 Recommendations
2000-I-0050   Miscellaneous Receipts (11/09/1999) 6 Recommendations




               Semiannual Report to the Congress: October 1, 2002 - March 31, 2003
                                                   54
Appendix 7 (continued)


U.S. Geological Survey

2001-I-0409   U.S. Geological Survey’s Financial Statement Audit for Fiscal Year 2000 (09/06/2001)
              1 Recommendation
2002-I-0054   Independent Auditors’ Report on the U.S. Geological Survey Financial Statements for Fiscal
              Years 2001 and 2000 (09/30/2002) 8 Recommendations

U.S. Virgin Islands

2002-I-0043   Grants for the Construction of Health Care Facilities, Department of Health, Government of
              the Virgin Islands (09/20/2002) 3 Recommendations




               Semiannual Report to the Congress: October 1, 2002 - March 31, 2003
                                                  55
                                       Appendix 8

                          Summary of Insular Area Reports
                           With Open Recommendations
                                 Over 6 Months Old
       Note: These Insular Area reports contain recommendations made specifically to Insular
Area governors and other Insular Area officials who do not report to the Secretary and are not
subject to the policy, guidance, and administrative oversight established by the Assistant
Secretary - Policy, Management and Budget.

INTERNAL AUDITS
American Samoa

2002-I-0003   Assessment and Collection of Taxes, American Samoa Government
              (11/15/2001) 13 Unresolved Recommendations
1996-I-0533   American Samoa Legislature, American Samoa Government (03/22/1996)
              7 Recommendations
Commonwealth of the Northern Mariana Islands
1994-I-1323 Utilities Rate Structure, Commonwealth of the Northern Mariana Islands (09/30/1994)
             3 Recommendations
1995-I-106  Contracting and Contract Administration, Commonwealth Utilities Corporation,
            Commonwealth of the Northern Mariana Islands (11/14/1994) 5 Recommendations
1996-I-0596 Management of Public Land, Commonwealth of the Northern Mariana Islands
            (03/20/1996) 6 Recommendations
1999-I-0356 Discretionary and Reprogrammed Funds, Office of the Governor, Commonwealth of the
            Northern Mariana Islands (03/26/1999) 2 Recommendations
Guam

1989-I-0064   Property Management, Department of Education, Government of Guam (04/01/1989)
              11 Recommendations
1989-I-0068   Procurement Practices, Department of Education, Government of Guam (04/28/1989)
              3 Recommendations
1991-I-0162   Follow-up Review – Administration of the Qualifying Certificate Program, Guam Economic
              Development Authority, Government of Guam (11/15/1990) 3 Recommendations
1992-I-1360   Government of Guam Retirement Fund (09/18/1992) 7 Recommendations
1998-I-0264   Legislature Capital Improvement Fund, Guam Legislature, Government of Guam
              (02/20/1998) 4 Recommendations
1998-I-0335   Programs and Operations, Department of Vocational Rehabilitation, Government of Guam
              (03/16/1998) 3 Recommendations
1999-I-0013   On-Call Substitute Teachers, Department of Education, Government of Guam (10/21/1998)
              1 Recommendation
1999-I-0255   Federal Grant Program Travel Activities, Department of Education, Government of Guam
              (02/25/1999) 7 Recommendations


               Semiannual Report to the Congress: October 1, 2002 - March 31, 2003
                                                56
Appendix 8 (continued)


1999-I-0455   Extended Day Program, Department of Education, Government of Guam
              (05/11/1999) 8 Recommendations
2001-I-0417   Loan Programs, Guam Economic Development Authority, Government of Guam (09/21/
              2001) 4 Recommendations
2001-I-0419   Qualifying Certificate Program, Guam Economic Development Authority, Government of
              Guam (09/30/2001) 6 Recommendations

Republic of the Marshall Islands

1994-I-0021   Capitol Relocation Project (10/18/1993) 2 Unresolved Recommendations

Palau

1989-I-0095   Power Plant and Fuel Storage Facility, Republic of Palau (07/31/1989) 6 Recommendations

U.S. Virgin Islands

1991-I-0467   Follow-up of Recommendations Contained in Report on the Road Fund (02/19/1991)
              1 Unresolved Recommendation
1993-I-0363   Inmate Care, Rehabilitation, and Safety, Bureau of Corrections (12/31/1992) 10 Unresolved
              Recommendations
1993-I-0572   Supply and Equipment Management, Department of Education (02/19/1993) 9 Unresolved
              Recommendations
1993-I-0670   Personnel, Property Management, and Procurement Practices, Bureau of Corrections
              (03/11/1993) 14 Unresolved Recommendations
1997-I-0040   Division of Agriculture, Department of Economic Development and Agriculture (10/21/1996)
              8 Unresolved Recommendations
1997-I-0243   Workmen’s Compensation Program (12/30/1996) 15 Unresolved Recommendations
1998-I-0188   Internal Revenue Taxes, Bureau of Internal Revenue (12/30/1997) 1 Unresolved
              Recommendation
1998-I-0191   Building Permit Fees, Department of Planning and Natural Resources (12/30/1997)
              7 Unresolved Recommendations
1998-I-0263   Sewage System User Fees (02/20/1998) 5 Unresolved Recommendations
1998-I-0384   Hurricane-Related Contracting, Department Of Education (03/31/1998) 4 Unresolved
              Recommendations
1998-I-0468   Follow-up of Recommendations Relating to the Bureau of Corrections, Department of Justice
              (05/29/1998) 6 Unresolved Recommendations
1998-I-0670   Interfund Loans and Federal Grant Balances (09/09/1998) 14 Unresolved
              Recommendations
1999-I-0365   Follow-up of Recommendations Relating to Personnel Management Practices, Division of
              Personnel (03/26/1999) 3 Unresolved Recommendations
2001-I-0107   Administrative Functions, Legislature of the Virgin Islands (12/29/2000) 8 Unresolved
              Recommendations
2001-I-0303   Billing and Collection Functions, Virgin Islands Port Authority (03/30/2001)
              9 Unresolved Recommendations
2002-I-0009   Virgin Islands Housing Finance Authority (12/31/2001) 2 Unresolved Recommendations
2002-I-0042   Federal Highway Grants, Department Of Public Works (08/30/2002) 5 Unresolved
              Recommendations
               Semiannual Report to the Congress: October 1, 2002 - March 31, 2003
                                                 57
                                                                              Appendix 8 (continued)


2002-I-0043    Grants for the Construction of Health Care Facilities, Department of Health (09/20/2002)
               2 Unresolved Recommendations

SINGLE AUDITS

Commonwealth of the Northern Mariana Islands

2001-A-0269 Commonwealth of the Northern Mariana Islands, Fiscal Year Ended September 30, 1999
            (03/08/2001) 43 Recommendations and $146,174 Unresolved
2002-A-0180 Commonwealth of the Northern Mariana Islands, Fiscal Year Ended September 30, 2000
            (02/19/2002) 1 Recommendation Unresolved

Federated States of Micronesia

2002-A-0237 Federated States of Micronesia National Government, Fiscal Year Ended September 30, 2000
            (04/03/2002) 1 Recommendation and $329,504 Unresolved

State of Kosrae

1994-A-0367 State of Kosrae, Federated States of Micronesia, Fiscal Year Ended September 30, 1992
            (02/24/1994) 9 Recommendations Unresolved

State of Pohnpei

1994-A-0527 State of Pohnpei, Federated States of Micronesia, Fiscal Year Ended September 30, 1992
            (04/19/1994) 1 Recommendation and $2,764 Unresolved

Guam

2001-A-0289 Government of Guam, Fiscal Year Ended September 30, 1999 (03/26/2001)
            35 Recommendations and $3,147,789 Unresolved
2002-A-0164 Government of Guam, Fiscal Year Ended September 30, 2000 (01/30/2002)
            1 Recommendation and $3,526,590 Unresolved

Republic of Palau

1992-A-0885 Republic of Palau, Fiscal Year Ended September 30, 1989 (06/05/1992) 1 Recommendation
            and $40,262 Unresolved
2001-A-0261 Palau Community Action Agency, Fiscal Year Ended September 30, 1999
            (03/05/2001) 10 Recommendations Unresolved




                  Semiannual Report to the Congress: October 1, 2002 - March 31, 2003
                                                   58
                                          Appendix 9


                            Program Integrity Reports Issued
                 During the 6-Month Period That Ended March 31, 2003



2003-I-0008 Report on the Department of the Interior’s Implementation Activities for Protecting Critical
            Cyber-Based Infrastructures (1/23/2003)




                Semiannual Report to the Congress: October 1, 2002 - March 31, 2003
                                                   59
                                       Appendix 10
                   Cross References to the Inspector General Act


                                                                                    Page
Inspector General Act of 1978, as amended

Section 4(a)(2)         Review of Legislation and Regulations                       N/A*

Section 5(a)(1)         Significant Problems, Abuses, and Deficiencies               3-22

Section 5(a)(2)         Recommendations for Corrective Action with Respect
                        to Significant Problems, Abuses, and Deficiencies            3-22

Section 5(a)(3)         Significant Recommendations from Agency's Previous
                        Reports on which Corrective Action has not been
                        Completed                                                   52-55

Section 5(a)(4)         Matters Referred to Prosecutive Authorities and Resulting
                        Convictions                                                    ii

Section 5(a)(5)         Matters Reported to the Head of the Agency                  N/A*

Section 5(a)(6)         List of Audit Reports Issued during the Reporting Period    23-40

Section 5(a)(7)         Summary of Significant Reports                               3-22

Section 5(a)(8)         Statistical Table – Questioned Costs                          43

Section 5(a)(9)         Statistical Table – Recommendations that Funds be
                        Put to Better Use                                             44

Section 5(a)(10)        Summary of Audit Reports Issued before the
                        Commencement of the Reporting Period for which
                        no Management Decision has been made                        46-51

Section 5(a)(11)        Significant Revised Management Decisions made
                        during the Reporting Period                                 N/A*

Section 5(a)(12)        Significant Management Decisions with which the
                        Inspector General is in Disagreement                        N/A*

Section 5(a)(13)        Information Described Under Section 05(b) of the Federal
                        Financial Management Improvement Act of 1996                N/A*




*N/A: Nothing to report this period.




             Semiannual Report to the Congress: October 1, 2002 - March 31, 2003
                                               60
                              General Information




Send Requests for Publications to:


U.S. Department of the Interior      (202) 219-3841
Office of Inspector General
1849 C Street, NW
Mail Stop 5341, MIB
Washington, D.C. 20240



Facsimile Number:                    (202) 208-4998



World Wide Web Site:                 www.oig.doi.gov
                              How to Report
                  Fraud, Waste, Abuse and Mismanagement
Fraud, waste, and abuse in government are the concern of everyone B Office of Inspector
General staff, departmental employees, and the general public. We actively solicit allegations of
any inefficient and wasteful practices, fraud, and abuse related to departmental or Insular Area
programs and operations. You can report allegations to us by:
              Mail:          U.S. Department of the Interior
                             Office of Inspector General
                             Mail Stop 5341-MIB
                             1849 C Street, NW
                             Washington, DC 20240
              Phone:         24-Hour Toll Free                  800-424-5081
                             Washington Metro Area              202-208-5300
                             Hearing Impaired (TTY)             202-208-2420
                             Fax                                202-208-6081
                             Caribbean Field Office             340-774-8300
                             Northern Pacific Field Office      916-978-5630*
              Internet:
              http://www.oig.doi.gov/hotline_form.html
              *Use Western Region Investigations telephone number until further notice




                         U.S. Department of the Interior
                           Office of Inspector General
                               1849 C Street, NW
                             Washington, DC 20240
                                     www.doi.gov
                                    www.oig.doi.gov
